    Office of Inspector General
   U.S. Department of State and
 Broadcasting Board of Governors

Program Performance Report
      Fiscal Year 2001




         Clark Kent Ervin
        Inspector General
                                                                                                Table of Contents
Vision and Mission....................................................................................................................................................................................................      A-1
Executive Summary...................................................................................................................................................................................................        A-1
FY 2001 Strategic and Performance Goals ...............................................................................................................................................................                     A-3
Performance Data Quality and Limitations ...............................................................................................................................................................                    A-3
Comparison of Performance Goal Achievement Based on Targets Met and Significant Work ...............................................................................                                                        A-5
Meeting Unmet Targets .............................................................................................................................................................................................         A-6
Performance Evaluations...........................................................................................................................................................................................          A-6
Budget Information....................................................................................................................................................................................................      A-7
Effect of FY 2001 Performance on FY 2002 Performance Goals.............................................................................................................................                                     A-7
Performance Results by Strategic Goal .....................................................................................................................................................................                 A-9
  Improved conduct of foreign relations...................................................................................................................................................................                  A-9
    Performance Goal 1 ............................................................................................................................................................................................        A-10
    Performance Goal 2 ............................................................................................................................................................................................        A-10
  Better alignment of fiscal and human resources with U.S. foreign policy priorities.............................................................................................                                          A-11
    Performance Goal 1 ............................................................................................................................................................................................        A-12
    Performance Goal 2 ............................................................................................................................................................................................        A-13
  More effective, efficient, and secure operations and infrastructures.....................................................................................................................                                A-14
    Performance Goal 1 ............................................................................................................................................................................................        A-18
    Performance Goal 2 ............................................................................................................................................................................................        A-19
    Performance Goal 3 ............................................................................................................................................................................................        A-20
  Greater adherence to fundamental principles governing professional and ethical conduct ..................................................................................                                                A-21
    Performance Goal 1 ............................................................................................................................................................................................        A-23
    Performance Goal 2 ............................................................................................................................................................................................        A-24
    Performance Goal 3 ............................................................................................................................................................................................        A-25
  Improved management and performance of resources to accomplish OIG objectives..........................................................................................                                                  A-26
    Performance Goal 1 ............................................................................................................................................................................................        A-28
    Performance Goal 2 ............................................................................................................................................................................................        A-28
Appendices:
 I. Comparison of OIG FY 2001 and FY 2002 Strategic and Performance Goals...............................................................................................                                                  A-I-1
 II. FY 2002 Strategic and Performance Goals, Measures, and Actual and Targeted Performance .....................................................................                                                         A-II-1
 III. Reports Issued in FY 2001 and the Primary Strategic Goal that They Supported...........................................................................................                                            A-III-1
 IV. OIG Strategic Plan for FY 2002-07 .................................................................................................................................................................                 A-IV-1
                                              OFFICE OF INSPECTOR GENERAL
                                                   2001 Performance Report

Our Vision

To support the Department of State and the Broadcasting Board of Governors in achieving their missions as effectively, efficiently, and
economically as possible.

Our Mission

The mission of the Office of Inspector General is to serve as an independent, objective reviewer and evaluator of the operations and
activities of the U.S. Department of State and the Broadcasting Board of Governors. We analyze those operations and activities with a
view toward promoting effectiveness, efficiency, and economy. We seek out instances of fraud, waste, abuse, and mismanagement, and
we work to prevent them. We report to the Secretary of State, the Broadcasting Board of Governors, and the Congress, keeping them fully
and currently informed of significant developments and serious concerns.

Executive Summary

This is the third annual performance report under the Government Performance and Results Act (GPRA) for the Office of Inspector General (OIG)
for the Department of State (Department) and the Broadcasting Board of Governors (BBG). It represents the results of efforts to achieve our
performance goals for FY 2001, a year of significant changes, including the arrival of a new Inspector General, new leadership of the Department,
a restructuring of the OIG’s organization and a complete revision of the OIG strategic and performance plans, goals, and measures for FY 2002
and beyond.

The results for FY 2001 are disappointing in that, of the 19 performance targets in the performance plan, OIG achieved or exceeded only 37
percent, missed 42 percent and had no complete and credible data for 21 percent. However, for those targets that were exceeded, the improvement
was often quite significant, as in the identification of cost efficiencies of $12.46 million—almost three times the $4.28 million target. In addition,
we met or exceeded FY 2000 results for 73 percent of those measures for which there was data. OIG also had several accomplishments the
significance of which was not captured quantitatively by the applicable performance measures, including:




                                                                       A-1
•   Assisting BBG in addressing the challenge of establishing itself as an independent agency by assessing its progress in managing the transition
    and identifying key operational issues, such as the lack of a memorandum of understanding governing operating arrangements. (Improved
    conduct of foreign relations)
•   Reviewing Department and BBG progress in establishing and using performance measures, resulting in identification of programs and
    operations requiring more effective goals and measures and the need for better linkage of bureau and mission performance plans with resource
    allocation decisions. (Better alignment of fiscal and human resources with U.S. policy priorities)
•   Completing almost 90 reviews of Department and BBG facilities, programs, and operations, including full-scope and limited security
    inspections of 45 overseas missions and a review of compliance with recommendations from a prior security inspection. (More efficient,
    effective, and secure operations and infrastructures)
•   Notifying the Department of the worldwide problem of overseas missions’ failing to conduct required management exercises and emergency
    drills, leading the Department to instruct all chiefs of mission to conduct these drills; and a recommendation that the Department simplify
    warning alarms at overseas missions, based on findings from more than 60 security reviews conducted by OIG since the Department
    implemented worldwide “duck and cover” drills and “imminent danger notification systems alarms” in response to earlier OIG
    recommendations. (More efficient, effective, and secure operations and infrastructures)
•   Meeting with officials from Argentina and the People’s Republic of China to share best practices and methodologies for establishing and
    strengthening internal controls, establishing and promoting professional standards, and ensuring greater accountability in government programs
    and operations. (Greater adherence to fundamental principles governing professional and ethical conduct)
•   Implementing a Project Tracking System (PTS) that allows OIG managers to plan and monitor progress against estimated milestones, staff
    hours, and travel and other costs. The PTS is the cornerstone of OIG’s new effort to reduce project completion time to six months by the end
    of FY 2003. (Improved performance of resources to accomplish OIG objectives)

OIG has undertaken a series of management improvements instituted by the new Inspector General to enable OIG to address better its core
mission and to achieve its new strategic and FY 2002 performance goals. Management improvements, started in late FY 2001, include:
reorganizing and redeploying OIG resources, to the maximum extent possible, away from support functions and toward core statutory functions;
adding a security inspector to conduct a limited security review as part of all post management inspections; and, as noted above, setting strictly
enforced timeframes for completing projects, with the goal of producing more and better products more quickly than ever before.




                                                                     A-2
                                                                  FY 2001 STRATEGIC and PERFORMANCE GOALS

Improved conduct of foreign            Better alignment of fiscal and      More effective, efficient, and secure       Greater adherence to fundamental         Improved management and
relations                              human resources with U.S.           operations and infrastructures              principles governing professional and    performance of resources to
                                       policy priorities                                                               ethical conduct                          accomplish OIG objectives

Chiefs of Mission and senior           The efforts of the Department to    Potential cost efficiencies and             Awareness and understanding of           Project management and
foreign affairs managers have in       develop and use performance         opportunities for streamlining in areas     standards of conduct and                 resource utilization weaknesses
place and exercise appropriately       measures are evaluated.             such as human resources, information        accountability are increased.            are identified and reduced.
the authorities, structures, skills,                                       management, financial management,
and foreign/domestic                                                       property management, and security are
relationships necessary to                                                 identified and best practices shared.
effectively develop, decide,
communicate and implement
policy decisions.

Policies, programs, operations,        Chiefs of Mission and senior        U.S. personnel, information, and            Areas of vulnerability and               Quality of products is improved
and other activities carried out       managers exercise the executive     facilities are made more secure through     opportunities for misconduct,            to meet customer needs.
by organizational units of the         and program skills and              the identification and correction of        mismanagement, and abuse are
U.S. foreign affairs community         authorities necessary to ensure     security weaknesses and deficiencies        reduced.
promote U.S. strategic goals           efficient and effective operation   related to human intelligence, technical
with increased effectiveness.          of resources and activities in      and physical attacks, terrorism, and
                                       support of U.S. strategic goals.    crime.

                                                                           Systemic weaknesses in areas such as        Allegations are reviewed and
                                                                           financial, information, real property and   investigations are conducted
                                                                           human resources management are              expeditiously, while at the same time
                                                                           reduced.                                    ensuring quality results and products.




 Performance Data Quality and Limitations

 We continue to experience shortcomings in our FY 2001 performance measures and supporting data, which are based, for the most part, on:

 •    interim outcomes and outputs of our work with, at best, an indirect correlation to the ultimate results encompassed in our goals; and
 •    data that are collected by preexisting processes and characterized in databases that were not designed with our goals and measures in mind and
      that we have been only partially successful, to date, in modifying to meet our needs.

                                                                                               A-3
Almost 75 percent of our measures rely on traditional indicators of OIG results—i.e., recommendations issued, accepted, or implemented; cost
savings and funds put to better use identified; and reviews, assessments, and other efforts conducted vis-à-vis our agencies. The other 25 percent
are based on customer feedback and the timeliness of targeted OIG activities. However, for most of these, we did not collect complete and
credible data this year.

Although we identified inconsistencies in some of the criteria for the measures themselves, our internal controls and validation efforts lead us to
believe that the data is relatively accurate and reliable for those measures for which we have reported data. For example, regarding the status of
recommendations, the data in our compliance analysis tracking system is reconciled monthly against individual issuing office documents. Once
reconciled with our offices, corrected summary reports are then provided to selected Department bureaus to give them the opportunity to identify
any discrepancies with their records. Other measures involving cost efficiencies, best practices identified, and reports issued are reconciled as part
of our semi-annual reporting process. In those cases where the data, if available, was incomplete or less than credible (21 percent of our measures)
we chose not to report the data in FY 2001.

For FY 2002 and beyond, we have redirected our performance measures almost entirely toward traditional measures of OIG success, including
reports issued, recommendations resolved and implemented, cost efficiencies identified, and fines and recoveries collected. We also have
established a new project tracking system that has improved significantly our ability to monitor both timeliness and alignment of resources with
our goals. We are working to ensure that the data provided by this and complementary systems are as complete and accurate as possible.

The unavailability of complete and credible data for 21 percent of our measures was due largely to changes in goals and priorities that resulted in
decisions not to pursue some planned initiatives or collect the data during the reporting period. For example, although our performance report
called for us to conduct a new customer survey, it was decided to delay the survey until late FY 2002 in order to assess the impact of the
management improvements instituted during the last quarter of FY 2001. In another case, changes in goals and priorities resulted in a reduction in
some anticipated outreach initiatives. As a result, we did not pursue plans to develop a feedback mechanism to assess attendees’ and course
developers’ satisfaction with OIG presentations at Department orientation and training courses.




                                                                      A-4
  Comparison of Performance Goals Achieved Based on Targets Met and Significant Work




Performance Goals Achieved Based on                   Performance Goals Achieved Based on
     Targets Met or Exceeded                               Significant Qualitative Work



          SG5/PG2   SG1/PG1
                                                                  SG5/PG2   SG1/PG1
   SG5/PG1               SG1/PG2
                                                           SG5/PG1                SG1/PG2

SG4/PG3                       SG2/PG1
                                                        SG4/PG3                        SG2/PG1


SG4/PG2                       SG2/PG2                   SG4/PG2                        SG2/PG2


   SG4/PG1               SG3/PG1                                                 SG3/PG1
                                                           SG4/PG1
          SG3/PG3   SG3/PG2
                                                                  SG3/PG3   SG3/PG2




MET             MISSED           NO                     MET             MISSED            NO
                                DATA                                                     DATA




                                         A-5
Meeting Unmet Targets

Overall, about 37 percent of OIG FY 2001 performance targets were met, 42 percent were missed, and 21 percent lacked enough complete or
credible data on which to make that determination. However, we still met or exceeded FY 2000 results in 73 percent of those for which we had
data. Of those targets that we either missed or did not have data available to make that determination, 50 percent have been incorporated into the
FY 2002 and FY 2003 Performance Plans with projected results for FY 2002 that exceed those expected, but missed, in FY 2001. The remaining
50 percent have been dropped in favor of measures and targets that better support our new goals and priorities. Specifically:

•   Three measures—relating to reports addressing strategic planning and the length of time that investigative cases are open—have been retained
    in the FY 2002 performance plan with targets meeting or exceeding those of FY 2001;
•   Three measures—relating to security recommendations implemented, systemic weakness recommendations accepted, and significant
    vulnerability recommendations accepted—have been replaced with related, but different, measures and targets; and
•   Six measures—relating to evaluations of diplomatic readiness goals, best practices, evaluations of OIG training sessions, project completions,
    and customer surveys—have been dropped.

Although the FY 2002 and FY 2003 plans do not have an internal strategic goal and the supporting performance goals, measures and targets for
two of the FY 2001 performance goals and measures—completing projects on time and customer surveys—we will continue to focus on these
issues. We have a new “enabling” goal (it enables us to achieve our goals, but is not associated with a formal strategic or performance goal) and
target to reduce the average duration of OIG audit and inspection projects to 7.5 months in FY 2002 and 6 months in FY 2003. We will formally
report our timeliness results in our FY 2002 Performance report. We are continuing to develop new methodologies, processes, and controls—
including a time tracking system to complement the project tracking system—to improve the accuracy, completeness, and consistency of the data
that support our measures. We will reevaluate and refine them, as appropriate, as we continue to monitor our progress in FY 2002 and beyond. In
addition, we plan to conduct a customer survey to assess the success of our management initiatives in late FY 2002, although there are no longer
any measures or targets associated with this effort.

We believe that the management initiatives started in late FY 2001 along with new initiatives currently underway will ensure that we meet or
exceed unmet FY 2001 targets carried over to, as well as the new targets in, our FY 2002 and FY 2003 plans.

Performance Evaluations

In February 2001, a peer review team from the OIG for the General Services Administration issued a report on its quality control review of our
audit operations. The review team concluded that the system of quality control we use was designed in accordance with President’s Council on
Integrity and Efficiency standards, and provided OIG with reasonable assurance that we are in conformance with professional standards in the
conduct of our audits. No other performance evaluations or other formal assessments of OIG programs and operations were conducted during the

                                                                     A-6
year. However, as part of his pre-confirmation activities and subsequent to assuming leadership of the OIG, the Inspector General solicited the
views and informal evaluations of numerous Administration, Congressional, Department, BBG and other internal parties. These assessments
played a pivotal role in the decisions made regarding the OIG reorganization and revisions to the OIG Strategic and FY 2002 Performance Plans.

Budget Information

Obligations for FY 2001 totaled $28,563,000.

Effect of FY 2001 Performance on FY 2002 Performance Goals

As reported above, our strategic and performance goals for FY 2002 and beyond have undergone a complete revision to reflect better the goals and
priorities of the new Inspector General. Although the overall intent of the new goals is similar to that of our prior goals, some of the new goals
represent a change in emphasis, as part of the Inspector General’s effort to focus OIG activities on its core mission to the maximum extent
possible. We have entirely revised our FY 2002 performance plan to reflect these new goals, priorities, and increased emphasis on our core
statutory functions, and to address the inconsistencies and other weaknesses we identified as we collected and analyzed FY 2001 data.

Although we will no longer be reporting our performance against many of the measures and targets missed in FY 2001, our future reporting
against our new goals should document our continued progress in achieving our overall goals and objectives. In measuring the success of our
efforts, we have adopted measures consisting of recommendations resolved and implemented, as well as efficiency-based measures such as cost
savings, funds put to better use, recoveries or fines. In cases where the outcomes of our activities cannot be measured effectively by these
quantifiable measures, we will continue to report anecdotally to provide a meaningful context for the results achieved.

During the course of monitoring FY 2001 performance and developing our revised Strategic and FY 2002 Performance Plans, we noted
weaknesses and inconsistencies in several of our then current measures and goals, such as those relating to:

    •   The percentage of recommendations that were resolved or implemented had significantly different criteria—each with its own inherent
        flaws—so that any comparisons of the results would be, at best, misleading;
    •   The percentage of recommendations made on specific subjects, Department diplomatic readiness measures evaluated, and the number of
        best practices identified were relatively poor indicators of performance for the goals they measured, because they were entirely output-
        oriented and assigned equal weight to outputs of varying significance and potential impact; and
    •   Formal evaluations of attendees and course developers of OIG presentations at Department training courses, completing projects as
        planned, and the results of customer surveys, while providing useful information on internal OIG operations, were either subjective or
        required more resources to develop adequate data than OIG could afford in FY 2001. However, although they are no longer associated


                                                                    A-7
        with OIG strategic goals or measures for FY 2002 and beyond, project timeliness will be targeted and tracked as an internal “enabling”
        goal and our results will be formally reported in our performance reports. In addition, a customer survey will be conducted in late 2002.

As a result of these identified inconsistencies and weaknesses and the revision of our strategic and performance goals, we have identified the
following categories of measures that we will use in FY 2002 and beyond:

   •   Recommendations resolved within six months of issuance;
   •   Recommendations implemented within one year of issuance;
   •   Programs reviewed and reports issued;
   •   Missions inspected and/or receiving limited or full security evaluations within the last 5 years;
   •   Cost efficiencies identified;
   •   Days that routine employee cases are open and/or take to complete; and
   •   Months to complete audits, inspections, and other program reviews and evaluations.

Several of these are used to measure performance in more than one strategic and performance goal. In those cases, except for differences in the
issues to which they relate, the measurement criteria are the same and results will be comparable across goals.

The revised FY 2002-07 Strategic Plan reflects these new goals and priorities, and is included as Appendix IV to this performance report. As
before, these goals are expressed in terms of the expected impact of OIG’s work in improving Department and BBG programs and operations.
Because the intent of our new goals and measures remains the same—to ensure that OIG’s work promotes the economy, efficiency, and
effectiveness of Department and BBG programs and operations, to the maximum extent possible—we believe that they will be effective in
continuing to make progress in achieving our overall mission and broader objectives. A comparison of our FY 2001 strategic and performance
goals and our new goals for FY 2002 and 2003 is provided in Appendix I. In addition, we have identified historical data and future targets for our
new performance goals in Appendix II.




                                                                      A-8
                                                     Strategic Goal: Improved Conduct of Foreign Relations

The Foreign Service Act of 1980, as amended, mandates that the OIG assess the effectiveness of foreign policy implementation by reviewing activities and
operations performed under the direction of chiefs of mission for consonance with U.S. foreign policy. This mission responsibility—which is unique to the
Department’s OIG and the one most closely aligned with the mission of the Department—is an essential component of our overseas and domestic inspections,
security and intelligence oversight reviews, and audits of issues that affect foreign policy.

Our FY 2001 performance goals under this strategic goal have focused on ensuring that chiefs of mission and senior managers have the authorities and other
capabilities necessary to carry out policy decisions effectively and that policies, programs, operations and other activities promoted U.S. strategic goals and
national interests. With respect to our success in meeting these goals, OIG believes that:

•   Chiefs of Mission and senior foreign affairs managers have in place and exercise appropriately the authorities, structures, skills, and foreign/domestic
    relationships necessary to effectively develop, decide, communicate and implement policy decisions: This goal has been met, based on the results of both
    our quantitative measure—the target was exceeded by a significant amount—and our qualitative work, discussed below, that was performed and reported
    on in FY 2001.

•   Policies, programs, operations, and other activities carried out by organizational units of the U.S. foreign affairs community promote U.S. strategic goals
    with increased effectiveness: This goal has been met, based on the results of both our quantitative measure—the target was exceeded by a significant
    amount—and our qualitative work, discussed below, that was performed and reported on in FY 2001.

                                                       Major Accomplishments in Support of This Strategic Goal


                             OIG Activity or Finding                                                                                Results

In reviewing BBG transition to an independent agency, OIG identified several unresolved     Department and BBG signature of the agreements, and a subsequent ALDAC cable to
operational issues and agreements that had not been signed between BBG and the              overseas missions, should help to ensure a more consistent approach in the exchange of
Department, resulting in uneven, ad hoc support by public affairs sections overseas. OIG    support services between the agencies and a more effective use of human resources in
recommended that BBG and the Department finalize the agreements and communicate to          carrying out U.S. public diplomacy initiatives overseas.
overseas personnel how the two agencies should work together.

OIG tailored its inspections program to assess how well ambassadors were overseeing         OIG identified and brought to the attention of Department and mission leaders in several
and coordinating intelligence and law enforcement activities and recommended actions to     countries issues where greater chief of mission coordination and leadership were required
improve coordination at missions with significant counternarcotics programs or law          to ensure the effectiveness of U.S. counternarcotics, political-military, and law
enforcement activities.                                                                     enforcement activities.




                                                                                           A-9
Performance Goal 1: Chiefs of Mission and senior foreign affairs managers have
in place and exercise appropriately the authorities, structures, skills, and                   Percent of OIG Recommendations
foreign/domestic relationships necessary to effectively develop, decide,                       Relating to COM Authority, Skills,
communicate and implement policy decisions.
                                                                                                       or Relationships
MEASURE: The number of recommendations addressing these issues, as a
percentage of the total number of recommendations made, will increase by ten
percent per annum over a three-year period.                                                   10.0%
                                                                                                                                    8.6%
 FY 1998         FY 1999         FY 2000         FY 2001       FY 2001 ACTUAL                  8.0%                        7.7%
                                                                                                                  7.0%
 ACTUAL          ACTUAL          ACTUAL          TARGET                                                   6.1%
                                                                                               6.0%
    N/A             6.1%           7.0%            7.7%               8.6%
                                                                                               4.0%
Success in meeting performance target: We exceeded our target and showed
significant improvement over our FY 2000 results.                                              2.0%
Data quality and strategies to address data limitations: We have verified the                  0.0%
accuracy and completeness of the FY 2001 data in our compliance tracking system.                        FY     FY     FY     FY
                                                                                                       1999 2000 2001 2001
Effect of results on the FY 2002 performance plan: As a result of revisions to our
strategic plan and goals for FY 2002 and beyond, this performance goal and                             Actual Actual Target Actual
measure have been replaced in our FY 2002 plan.

Performance Goal 2: Policies, programs, operations, and other activities carried
out by organizational units of the U.S. foreign affairs community promote U.S.                  Percent of OIG Recommendations
strategic goals with increased effectiveness.                                                   Relating to the Promotion of U.S.
MEASURE: The number of recommendations addressing these issues, as a                                     Strategic Goals
percentage of the total number of recommendations made, will increase by ten
percent per annum over a three-year period.                                                   12.0%                                10.6%
  FY 1998          FY 1999          FY 2000         FY 2001           FY 2001                 10.0%
                                                                                                                 7.5%     8.3%
  ACTUAL           ACTUAL           ACTUAL          TARGET            ACTUAL                   8.0%     6.5%
     N/A             6.5%             7.5%            8.3 %            10.6%                   6.0%
Success in meeting performance targets: We exceeded our target and showed
                                                                                               4.0%
significant improvement over our FY 2000 results.                                              2.0%
Data quality and strategies to address data limitations: We have verified the                  0.0%
                                                                                                      FY 1999 FY 2000   FY 2001   FY 2001
accuracy and completeness of the FY 2001 data in our compliance analysis tracking                      Actual  Actual    Target    Actual
system.
Effect of results on FY 2002 performance plan: As a result of revisions to our
strategic plan and goals for FY 2002 and beyond, this performance goal and
measure have been replaced in our FY 2002 plan.




                                                                                     A - 10
                       Strategic Goal: Alignment of Fiscal and Human Resources with U.S. Foreign Policy Priorities

GPRA requires agencies to set goals for program performance and to measure results against those goals to help improve efficiency and effectiveness and to
increase the accountability of federal programs. Congress has requested that Inspectors General assist with oversight of agency implementation of GPRA.

Our FY 2001 performance goals under this strategic goal focused on Department efforts to develop and use performance measures and the efforts of chiefs of
mission and other senior managers to exercise the executive and programs skills necessary to ensure efficient and effective operation of resources and
activities in support of U.S. strategic goals. With respect to our success in meeting these goals, OIG believes that:

•   The efforts of the Department to develop and use performance measures are evaluated: This goal has not been fully met, based on the results of either our
    quantitative measures—results for both measures fell slightly short of our targets—or the qualitative work, discussed below, that was performed and
    reported on in FY 2001. However, it should be noted that overall results were equal to those reported in FY 2000.

•   Chiefs of Mission and senior managers exercise the executive and program skills and authorities necessary to ensure efficient and effective operation of
    resources and activities in support of U.S. strategic goals: This goal has been met, based on the results of both our quantitative measure—the target was
    exceeded by a significant amount—and the qualitative work, discussed below, that was performed and reported on in FY 2001.

                                                      Major Accomplishments in Support of This Strategic Goal


                            OIG Activity or Finding                                                                               Results

In reviewing BBG’s audience research program, OIG found that BBG performance              OIG’s recommendation prompted BBG to examine more closely its strategic plan and
objectives for audience research were not readily quantifiable or directly linked to      performance indicators and to undertake a process to develop new indicators that will
performance indicators, and did not adequately show the performance of BBG broadcast      better demonstrate the performance of BBG broadcast entities.
entities.

OIG reviewed bureau and mission performance plans and relevant performance                The Department has increased its focus on establishing effective goals and performance
measures, including 16 of the Department’s 45 diplomatic readiness performance            measures for its programs and operations, including developing measurable and
measures, as a component of each inspection and audit conducted.                          meaningful performance measures for its information security program and establishing
                                                                                          country-specific training objectives and measures for the Anti-Terrorism Assistance
                                                                                          Program.




                                                                                       A - 11
Performance Goal 1: The efforts of the Department to develop
and use performance goals and measures are evaluated.
                                                                           Department Diplomatic Readiness
MEASURE: 17 of the diplomatic readiness performance                        Performance Measures Evaluated
measures will be evaluated.
FY 1998      FY 1999       FY 2000      FY 2001      FY 2001                    20
                                                                                               16     17     16
ACTUAL       ACTUAL        ACTUAL       TARGET       ACTUAL
                                                                                15
   N/A            0           16           17           16
                                                                                10
MEASURE: OIG will issue five reports with recommendations
to improve the Department’s strategic planning efforts.                         5
                                                                                0         0
FY 1998      FY 1999       FY 2000      FY 2001      FY 2001
                                                                                      FY     FY     FY     FY
ACTUAL       ACTUAL        ACTUAL       TARGET       ACTUAL
                                                                                     1999 2000 2001 2001
   N/A       2 Reports    4 Reports     5 Reports    4 Reports                       Actual Actual Target Actual
Success in meeting performance targets: We missed our target
to evaluate 17 of the Department’s 37 Diplomatic Readiness
measures during the course of our reviews of Department                            OIG Reports with
programs, having evaluated only 16, the same number as in FY               Recommendations to Improve DOS
2000. We missed our target to issue five reports with                          Strategic Planning Efforts
recommendations to improve Department planning efforts,
issuing the same number as we issued in FY 2000.                                                      5
                                                                            5
Data quality and strategies to address data limitations: We                                   4               4
                                                                            4
have verified the accuracy and completeness of the FY 2001 data
in our compliance analysis tracking system.                                 3
                                                                                      2
                                                                            2
Effect of results on the FY 2002 performance plan: As a result
                                                                            1
of revisions to our strategic plan and goals for FY 2002 and
beyond, this performance goal and measure have been replaced in             0
                                                                                FY 1999 FY 2000 FY 2001 FY 2001
our FY 2002 plan.                                                                Actual  Actual  Target  Actual




                                                                  A - 12
Performance Goal 2: Chiefs of Mission and senior
managers exercise the executive and program skills and
authorities necessary to ensure effective and efficient
operation of resources and activities in support of U.S.
strategic goals.
                                                                          Recommendations Relating to COM
MEASURE: The number of recommendations in these
                                                                            Ensuring Effective & Efficient
areas, as a percentage of all OIG recommendations made
during the year, will increase by five percent per year.                            Operations
FY 1998     FY 1999    FY 2000     FY 2001      FY 2001
ACTUAL      ACTUAL     ACTUAL      TARGET       ACTUAL                15.0%                                  14.3%
  N/A         6.7%       7.8%        8.1%        14.3%
                                                                      10.0%               7.8%      8.1%
Success in meeting performance targets: We exceeded
our target and showed significant improvement over our FY                       6.4%
2000 results.                                                         5.0%
Data quality and strategies to address data limitations:
We have verified the accuracy and completeness of the FY              0.0%
                                                                              FY 1999   FY 2000   FY 2001   FY 2001
2001 data in our compliance analysis tracking system.                          Actual    Actual    Target    Actual

Effect of results on the FY 2002 performance plan: As a
result of revisions to our strategic plan and goals for FY
2002 and beyond, this performance goal and measure have
been replaced in our FY 2002 plan.




                                                             A - 13
                          Strategic Goal: More Effective, Efficient and Secure Operations and Infrastructures

A significant portion of the foreign affairs budget is devoted to developing, maintaining, and securing the infrastructures—including physical facilities,
information systems, financial management, grants management, procurement, personnel systems, and administrative support services—that underlie and
support its operations and provide a base for the conduct of U.S. foreign policy. A major part of OIG resources are devoted to efforts in support of this goal,
including addressing systemic weakness and security vulnerabilities; ensuring accountability for the estimated $3 billion in federal financial assistance,
including grants and cooperative agreements, that is administered by the Department; and working with the Department and BBG to identify opportunities to
streamline operations and reduce infrastructure and operational costs, inefficiency, and redundancy while increasing effectiveness.

Our FY 2001 performance goals under this strategic goal focused on identifying potential cost efficiencies and opportunities for streamlining; improving the
security of U.S. personnel, facilities, information, and materials; and reducing systemic weaknesses. With respect to our success in meeting these goals, OIG
believes that:

•   Potential cost efficiencies and opportunities for streamlining in areas such as human resources, information management, financial management,
    property management and security are identified and best practices shared: This goal has been met, based on the results of both our quantitative
    measures—we believe that the significant amount of cost efficiencies we identified (almost three times our target) overshadows by far the shortfall in our
    second measure relating to best practices identified—and our qualitative work, discussed below, that was performed and reported on in FY 2001.

•   U.S. personnel, information, and facilities are made more secure through the identification and correction of security weaknesses and deficiencies related
    to human intelligence, technical and physical attacks, terrorism, and crime: This goal has been met, albeit at a lower level than desired, based on the
    results of both our quantitative measures—one target was exceeded and the other, although missed, showed a significant improvement over FY 2000
    results—and our qualitative work, discussed below, that was performed and reported on in FY 2001.

•   Systemic weaknesses in areas such as financial, information, real property and human resources management are reduced: This goal was missed by a
    considerable margin, based on the results of our quantitative measure—we achieved less than 50 percent of our targeted level and suffered an almost equal
    drop from our FY 2000 results. Even considering the qualitative work, discussed below, that was performed and reported on in FY 2001, OIG cannot claim
    that this goal has been fully met. However, an initiative currently is underway to improve significantly our compliance process while we continue to focus
    considerable attention on reviewing and identifying ways to improve the financial management and administrative support of the Department and BBG.




                                                                           A - 14
                                                         Major Accomplishments in Support of This Strategic Goal


                              OIG Activity or Finding                                                                                      Result

Review of the Bureau of Diplomatic Security’s (DS) Surveillance Detection (SD) program            DS implementation of all OIG recommendations has improved program effectiveness,
found that the worldwide establishment of this new security initiative against terrorism was a    including coordination of SD programs with posts’ Imminent Danger Notification System.
significant achievement, but the program lacked adequate procedures to deal with                  OIG identified best practices and alternative methods to the existing SD program model
emergencies and had missed an important opportunity to use its staff as an additional layer       that can more economically or efficiently achieve the goal of detecting hostile
of protection for U.S. missions against mass casualty attacks. OIG recommended actions to         surveillance.
improve program effectiveness, including using more efficient and cost-effective alternatives
to detect surveillance, when possible.

OIG’s audit of the Department’s Anti-Terrorism Assistance Program recommended actions             The Department has agreed to implement a number of the recommendations, including the
to correct identified problems, including solicitation of competitive bids for training           establishment of quantifiable, results-based measurements to quantify the effectiveness of
services, a memorandum of understanding to clarify organizational responsibilities, and           the program.
establishment of country-specific objectives and program measurements.


OIG conducted 45 full and limited scope security inspections, audits, and compliance              Physical security has shown the most improvement, with increased or strengthened setback
follow-up reviews and identified significant security weaknesses relating to physical,            at many posts. In addition, Department and post-initiated projects have resulted in improved
personnel, procedural, technical, and information security and emergency preparedness.            compound access controls, hardlines, and guard patrolling and screening procedures.
Specific recommendations to correct these vulnerabilities are classified, but compliance
records show continued improvement in security programs at inspected entities.

OIG security oversight inspections and audits identified serious vulnerabilities in the control   Processing, storage, handling, and destruction of classified material have improved at
of classified or sensitive documents. Specific recommendations resulted in on-the-spot or         inspected posts and in the Department. The number of security infractions has decreased in
generic improvements, particularly regarding the amount of classified material stored             many areas, although overall numbers remain a concern.
overseas as well as the conditions under which such material was stored.

OIG security inspections revealed widespread weaknesses in emergency preparedness                 Emergency preparedness procedures are steadily improving overseas and domestically, and
procedures at overseas missions, including out-of-date or incomplete emergency                    emergency plans are more complete and current. Later inspections revealed that
preparedness plans and weak emergency procedures, especially regarding reaction to a              preparedness for a terrorist attack had improved, proper amounts of emergency supplies were
terrorist attack. Emergency rations, medical, and digging equipment were lacking at many          found at more posts, and personnel at all levels were taking emergency preparedness more
posts, and emergency coordination between posts and national security authorities needed          seriously.
improvement.

In reviewing grantee awards for activities in the New Independent States, OIG identified $8       Grantee actions to implement OIG recommendations have resulted in improved
million in questioned costs, and accounting weaknesses such as deficient internal controls,       accounting and internal controls. Timely OIG reporting supported the Department’s
failure to account adequately for funds, charges for travel costs not incurred, and               decision process on whether to award a new grant. The audit also resulted in potential cost
inaccuracies and inconsistencies between financial data recorded in official accounting           efficiencies of $8 million.
records and amounts reported in certified financial reports and annual single audit reports.




                                                                                             A - 15
                              OIG Activity or Finding                                                                                     Result

In reviewing awards to a Department grantee, OIG identified a need for significant              Actions taken by the grantee to establish adequate accounting and internal controls have
improvements in accountability to ensure that federal funds were properly accounted for         included hiring additional accounting staff, hiring a consultant to assist in establishing
and spent for the intended purpose of the agreements. As a result of grantee failure to         written accounting policies and procedures, and taking steps to file the appropriate U.S.
comply with applicable regulations and agreements, OIG identified $2.2 million in               tax documents. The audit resulted in potential cost efficiencies of $2.2 million.
questioned costs.

In reviewing selected grantee awards for activities in the New Independent States, OIG          The grantee modified its accounting system and implemented new accounting policies and
identified $1.2 million in questioned costs, based on inaccuracies and inconsistencies          procedures to ensure that expenditures reported reflect the actual costs recorded in its
between the financial data in the grantee’s official accounting records and the amounts         official accounting system. Timely OIG reporting supported the Department’s decision
reported in certified financial reports and single audit reports.                               process on whether to award a new grant. The audit resulted in potential cost efficiencies
                                                                                                of $1.2 million.

OIG audited and issued unqualified opinions on the Department’s financial statements,           The Department has made progress in providing timely data for audits of the agency-wide
identified weaknesses in internal control and financial systems security, and assisted the      financial statement audit. Based on work done in FY 2001, the Department’s FY 2002
Department in improving the timeliness with which its financial statements were                 financial statements were issued on time.
reported. Specific security features associated with the Central Financial Management
System application appeared to function correctly and were well managed, and
information technology security posture at the Charleston Financial Service Center was
found to be reasonably high.

OIG found that a grantee’s accounting system was adequate, but identified a need for            In March 2001, the Department’s grants officer issued a final determination letter
significant improvements in cash management, based on inaccuracies between financial            requiring the grantee to submit documentation prior to reimbursement of costs. Timely
data recorded in the grantee’s accounting records and amounts reported in its quarterly         OIG reporting supported the Department’s grants decision process.
financial reports.

OIG found that the Department did not apply existing controls to ensure complete and timely     The Department has taken action to review and reconcile the accounts receivable and will
reimbursement for employee overseas hospitalizations, resulting in almost $1 million in         pursue the open accounts in accordance with Department debt collection procedures,
open accounts receivable for FYs 1996-99. OIG recommended improvements to ensure that           resulting in cost efficiencies for the Overseas Medical Program.
the Department collected on valid open accounts.

During a review of selected Radio Free Europe/Radio Liberty (RFE/RL) administrative             BBG subsequently bid, and awarded in October 2001, a single contract for audience research
practices, OIG found that RFE/RL and Radio Free Asia were routinely awarding sole-              worldwide, thereby improving the efficiency of BBG operations by removing a major sole-
source contracts for audience research without adequate justification, as required by           source contract vulnerability and helping to ensure that the U.S. Government is receiving
OMB Circular A-110. OIG recommended that such contracts be competitively bid.                   these services at the most cost-effective price.




                                                                                             A - 16
                              OIG Activity or Finding                                                                                   Result

At OIG’s direction, external computer specialists perform information technology              In response to concerns raised during this audit, another FSC addressed security concerns
vulnerability assessments of Department financial systems as part of the annual audit of      and spent a considerable amount of time in preventive maintenance to secure its local area
the Department’s financial statements. During an assessment of one financial service          network and identify any intrusion. When the external computer specialists performed an
center (FSC), significant potential weaknesses in information systems security were           assessment of this FSC during the audit of the Department’s FY 1999 financial
identified.                                                                                   statements, they were unable to compromise mainframe security and concluded that the
                                                                                              overall physical security was excellent.

In response to an OIG review of the Department’s implementation of the Government             The Under Secretary for Management designated the Chief Information Officer to
Information Security Reform Act (GISRA), the Under Secretary for Management                   administer the Department’s information security program, establishing a central
reassessed senior management roles and responsibilities of the Bureau of Information          management focus on information security to improve the Department’s ability to protect
Resource Management and the Bureau of Diplomatic Security in managing information             its information technology assets from security risks. He has also directed the
and directed actions consistent with GISRA.                                                   development of measurable, meaningful performance measures for Department’s
                                                                                              information security program.

In response to a congressional request, OIG evaluated the extent to which the                 The Department and the BBG have removed all of the cookies identified and have taken
Department and BBG use “cookies” or other means to collect personally identifiable            steps to ensure that privacy statements are posted on their web sites. In response to our
information on their public web sites.                                                        recommendation, the Department has established an Internet Program Office to support
                                                                                              its Internet Steering Committee in overseeing and coordinating web sites on a
                                                                                              Department-wide basis, and BBG officials have developed a policy directive to ensure
                                                                                              compliance with federal guidelines for Internet privacy management within that agency.

OIG review of the Department’s implementation of GISRA found significant progress by          The International Broadcasting Bureau has published its Information Security Program
BBG in complying with GISRA requirements.                                                     Plan, and all five key functional areas have published internal program plans to implement
                                                                                              their risk assessment based security program. BBG also conducted a detailed review of its
                                                                                              physical security plans and initiatives at installations worldwide.

As part of a government-wide review of critical infrastructure protection (CIP), OIG          The Department has taken actions to assist host governments and foreign critical
recommended actions to improve bilateral and multilateral cooperation, contingency            infrastructure providers in protecting their critical infrastructures. The Department has
planning, and sharing of information; address important gaps in the Department’s CIP plan;    also improved its ability to protect its mission-critical information technology
and improve employee information security awareness.                                          infrastructure, and enhance the information security awareness of its employees
                                                                                              worldwide.

OIG identified recommendations to address lapses in nonimmigrant visa management              In response to OIG recommendations, the Department has established new regional
resulting from inadequate training and support for first-tour consular officers at small      consular officer positions to improve oversight at these posts and developed new training
posts.                                                                                        programs specifically designed for entry-level officers at one-officer posts.

During the review of BBG’s transition to independence, OIG recommended that BBG               BBG’s decision to defer expansion of its transmitting network delayed, and potentially
defer technical expansion of its broadcasting network to meet the level of broadcasting       prevented, the unnecessary expenditure of several million dollars until the need for the
capacity requested by the Department until the Department has completed its needs             additional broadcasting capacity is demonstrated by the results of the Department’s needs
assessment and BBG determines that existing capacity would not support its needs.             assessment.


                                                                                           A - 17
Performance Goal 1: Potential cost efficiencies and opportunities for
streamlining in areas such as human resources, information                                    Potential $ Value of Efficiencies
management, financial management, property management, and
security are identified and best practices shared.                                                   Identified in OIG
MEASURE: The potential dollar value of questioned costs,                                            Recommendations
unsupported costs, and funds put to better use in OIG
recommendations accepted by foreign affairs agencies will increase
each year by five percent over the FY 1998 baseline.                                          $15                                       $12.46
 FY 1998        FY 1999         FY 2000        FY 2001        FY 2001
                                                                                                              $9.36




                                                                                   Millions
 ACTUAL         ACTUAL          ACTUAL         TARGET         ACTUAL                          $10
   $3.7          $9.36          $3.23          $4.28          $12.46
                                                                                                      $3.70                     $4.28
  Million        Million        million        Million        Million
                                                                                               $5                     $3.23
MEASURE: The number of best practices identified and shared will
increase by five percent over FY 2000.
                                                                                                $-
 FY 1998        FY 1999         FY 2000        FY 2001        FY 2001                                FY 1998 FY 1999 FY 2000 FY 2001 FY 2001
 ACTUAL         ACTUAL          ACTUAL         TARGET         ACTUAL                                  Actual  Actual  Actual Target Actual
    N/A             31             23             35             19
Success in meeting performance targets: We significantly exceeded
our FY 2001 target and FY 2000 actual results (by almost 300% and                               Best Practices Identified in OIG
400%, respectively) for the dollar value of potential cost efficiencies.                                    Reports
However, we fell considerably short of meeting both our FY 2001
target and our FY 2000 actual results for the number of best practices                                                    35
identified and shared. We identified another ten “best practices” in our                35
reports. However, because they were not clearly defined or were                                      31
merely restatements of best practices previously issued by the
                                                                                        30
Department, we did not include them in our totals. We will continue to                  25                     23
look for and point out best practices where appropriate, but will no
                                                                                        20                                           19
longer target them as a measure of performance in future years.
Data quality and strategies to address data limitations: The data for
                                                                                        15
these measures come directly from our reports. We have verified their                   10
accuracy and completeness.
                                                                                         5
Effects of results on FY 2002 performance plan: As a result of
revisions to our strategic plan and goals for FY 2002 and beyond, this
                                                                                         0
                                                                                                FY 1999    FY 2000    FY 2001    FY 2001
performance goal and measure have been replaced in our FY 2002 plan.                             Actual     Actual     Target     Actual
However, the measure relating to potential cost efficiencies is continued
under a new strategic and performance goal.




                                                                            A-18
Performance Goal 2: U.S. personnel, information, and facilities are
made more secure through the identification and correction of                           Percent of OIG Security
security weaknesses and deficiencies related to human intelligence,
technical and physical attacks, terrorism, and crime.                                 Recommendations Resolved
MEASURE: For security recommendations made in FY 2000, (a) at
least 95 percent will be resolved and (b) at least 80 percent will be                                  94%                  95%        97%
                                                                                    100%     90%
implemented by 9/30/01.                                                                                           78%
 FY 1998        FY 1999         FY 2000        FY 2001         FY 2001
                                                                                     80%
 ACTUAL         ACTUAL          ACTUAL         TARGET          ACTUAL                60%
(a) 90%        (a) 94%         (a) 77.5%      (a) 95%         (a) 97.4%              40%
(b) 50%        (b) 70%         (b) 57.3%      (b) 80%         (b) 73.5%              20%
Success in meeting performance targets: We exceeded our target for                    0%
resolving recommendations, but missed our target for having them                           FY 1998   FY 1999   FY 2000    FY 2001    FY 2001
implemented. However, our rates for FY 2001 in both categories were                         Actual    Actual    Actual     Target     Actual
not only significant improvements over FY 2000, but were the best
results we achieved during the four years for which we reported results.
It should be noted that in FY 2001, we initiated a major effort to work
with the Department to address outstanding security recommendations                         Percent of OIG Security
and, although we still fell short of one target, the results indicate that                 Recommendations Closed
our efforts were largely successful overall.
Data quality and strategies to address data limitations: We have                                                           80%        74%
verified the accuracy and completeness of the data as found in our                  80%                70%
compliance analysis tracking system.                                                                             57%
                                                                                    60%      50%
Effects of results on FY 2002 performance plan: As a result of
revisions to our strategic plan and goals for FY 2002 and beyond, this              40%
performance goal and measure have been replaced in our FY 2002 plan.
We will continue to track and set targets for security-related                      20%
recommendations, under a new strategic and performance goal,
although the criteria for the period in which they are resolved and                  0%
                                                                                           FY 1998   FY 1999   FY 2000   FY 2001    FY 2001
implemented will differ from the criteria used in FY 2001 and prior                         Actual    Actual    Actual    Target     Actual
years.




                                                                             A-19
Performance Goal 3: Systemic weaknesses in areas such as financial,
information, real property, and human resource management are
reduced.
MEASURE: At least 75 percent of recommendations relating to
reducing systemic weaknesses and other impediments to effective
implementation of foreign policy are accepted by foreign affairs
agencies.                                                                               Percent of OIG Systemic
 FY 1998        FY 1999         FY 2000        FY 2001        FY 2001
                                                                                      Weakness Recommendations
 ACTUAL         ACTUAL          ACTUAL         TARGET         ACTUAL                           Accepted
   52%             62%            63%            75%             34%
Success in meeting our performance target: We fell considerably                     80%                             74%
short of our target for FY 2001 and the actual results of FY 2000. We               70%             62%
believe this is due largely to the reduced attention paid to compliance
by the components of our Office of Audits as we started and then                    60%     52%             53%
aborted an attempt to reorganize into a matrix organization that affected           50%
its operations considerably during the year. Having subsequently                                                            34%
reorganized into a more traditional audit structure, and placing a greater          40%
emphasis on compliance under our revised strategic and performance                  30%
goals, we have targeted this area for considerable improvement in FY
                                                                                    20%
2002 and beyond.
                                                                                    10%
Data quality and strategies to address data limitations: We have
verified the accuracy and completeness of the data in our compliance                 0%
                                                                                          FY 1998 FY 1999 FY 2000 FY 2001 FY 2001
analysis tracking system.
                                                                                           Actual  Actual  Actual  Target  Actual
Effects of results on FY 2002 performance plan: As a result of a
revision to our strategic plan and goals for FY 2002 and beyond, this
performance goal and measure have been replaced in our FY 2002 plan.
We will continue to track and set targets for the resolution and
implementation of recommendations, under a new strategic and
performance goal, although the criteria for the period in which they are
resolved and implemented will differ from the criteria used in FY 2001
and prior years.




                                                                             A-20
Strategic Goal: Greater Adherence to Fundamental Principles Governing Professional and Ethical Conduct

All government employees must conform to fundamental guiding principles governing professional and ethical conduct. The standards derived from these
principles, as defined in law, executive order, regulation, policy, and procedure encompass a broad range of professional and ethical behavior, actions, and
integrity, as well as personal and management accountability. OIG is mandated to prevent and detect waste, fraud, and mismanagement. Specific allegations
or other information indicating possible violations of law or regulation are investigated by OIG special agents supported by experts from other OIG offices, as
appropriate. We also work proactively to educate and share best practices with targeted audiences—such as new Ambassadors—to improve adherence to
standards of accountability by ensuring that Department and BBG managers and employees are informed of and understand the standards specific to their
professional and ethical conduct.

Our FY 2001 performance goals under this strategic goal focused on increasing awareness and understanding of standards of conduct and accountability and
the investigative process, reducing areas of vulnerability and opportunities for misconduct, and reviewing and investigating allegations expeditiously while
ensuring quality results. With respect to our success in meeting these goals, OIG believes that:

•      Awareness and understanding of standards of conduct and accountability are increased: We cannot say that this goal was met because we have no formal,
       quantifiable data to report for either of the measures under this performance goal.1 In addition, although we continued to make presentations at Foreign
       Service Institute and other training venues, as appropriate, the level of OIG participation in such venues was limited. Although we will continue to make
       such presentations in the future, this goal is not included in our performance plans for FY 2002 and beyond.

•      Areas of vulnerability and opportunities for misconduct, mismanagement, and abuse are reduced: This goal was missed by a considerable margin, based
       on the results of our quantitative measure—or, more appropriately, the lack of any results, although only a slight decrease from FY 2000 results. Even
       considering the qualitative work, discussed below, that was performed and reported on in FY 2001, OIG cannot claim that this goal has been fully met.
       However, an initiative is currently underway to improve significantly our compliance process while we continue to focus considerable attention on
       identifying areas of vulnerability.

•      Allegations are reviewed and investigations are conducted expeditiously, while at the same time ensuring quality results and products: This goal has been
       met, albeit at a lower level than desired, based on the results of our quantitative measures—two of the four targets were achieved, although, overall, the
       timeliness of the completion of employee investigations fell short of the results achieved in FY 2000—and the qualitative work, discussed below, that was
       performed and reported on in FY 2001. It should be noted that the turnover in investigative agents severely hindered OIG’s ability to complete the backlog
       of existing, plus new, cases in as timely a manner as targeted. Although the investigative staffing shortfall is expected to continue for most, if not all of the
       year, we are still targeting improved results on timeliness in FY 2002.




1
    During FY 2001, we chose to devote the resources necessary to obtain this information to other, more pressing needs.



                                                                                            A - 21
                                                        Major Accomplishments in Support of This Strategic Goal


                            OIG Activity or Finding                                                                                       Result
OIG has continued to provide presentations to seminars and courses for Ambassadors,             Embassy managers and incoming employees are more aware and better understand the
Deputy Chiefs of Mission, incoming Foreign Service officers and Civil Service employees,        role of the OIG and the ways in which it can contribute to the efficiency, effectiveness,
and domestic administrative officers, although plans to measure audience response to these      and integrity of their operations, as well as a better understanding of the standards of
presentations were not implemented because of competing priorities.                             accountability and ethical conduct governing Federal service.

OIG has been active in meeting with auditors, inspectors, and law enforcement officials         Meetings with foreign officials have contributed to improved accountability in foreign
from Argentina and the Peoples’ Republic of China to address ways to promote greater            government operations through sharing of best practices and methodologies to establish and
accountability and transparency in government programs and operations.                          strengthen internal controls; conduct and coordinate audits, inspections, and program
                                                                                                evaluations; establish and promote professional standards and enforce adherence to ethical
                                                                                                standards and other accountability measures.

The OIG identified some serious deficiencies in the cashiering operations at the Miami          Improved internal controls leaving passport fees less vulnerable to theft.
Passport Office. We found that a number of requirements from its policy manual were
not being followed, such as reconciling receipts and proper close-out procedures. In
addition, we believe some issues were not sufficiently covered in the policy manual, such
as training and reconciliation of bank statements.

OIG conducted a joint investigation with INS and IRS of a large-scale scheme to defraud         The defendants were found guilty of all charges.
the EB-5 investor visa program. The investigation determined that a company had
submitted fraudulent visa petitions and other false statement to the government,
pocketing approximately $21 million.

A joint OIG investigation with INS, IRS, and Social Security Administration Office of           Thus far, the case has resulted in six convictions, indictment of several other suspects, and
Inspector General identified a network of people in the United States and the Czech             forfeiture of more than $136,000 in seized assets. Extradition of another Slovak national is
Republic engaged in visa fraud, alien smuggling, and money laundering.                          pending.




                                                                                             A - 22
Performance Goal 1: Awareness and understanding of standards of
conduct and accountability are increased.
MEASURE: Attendees at training sessions rate the value of the                           Training Course Attendee
material presented as “Very High.”                                                    Evaluations of the Value of OIG
 FY 1998        FY 1999         FY 2000        FY 2001         FY 2001                         Presentations
 ACTUAL         ACTUAL          ACTUAL         TARGET          ACTUAL
    N/A           Good            High         Very High       No Data                                  Very High
MEASURE: FSI course curriculum developers rate the value of OIG-                                 High
developed course content as “Very High” and responsive to feedback
                                                                                         Good                       No
from previous course attendees.
                                                                                                                    Data
  FY 1998       FY 1999       FY 2000      FY 2001         FY 2001
 ACTUAL        ACTUAL         ACTUAL       TARGET         ACTUAL
    N/A           Good            High         Very High       No Data
                                                                                      FY 1999 FY 2000 FY 2001 FY 2001
Success in meeting Performance targets: OIG staff made                                 Actual  Actual  Target  Actual
presentations in classes attended by Department Foreign and Civil
Service employees at the Foreign Service Institute (FSI) in FY 2001.
However, FSI did not request formal feedback from participants in
classes conducted by Department personnel, and we were unable to
develop a formal questionnaire for FSI curriculum developers prior to
                                                                                        Training Course Developer
the end of FY 2001. As a result, we have no formal data to report and                 Evaluations of the Value of OIG
have chosen not to report or rely on anecdotal data. Although we will                          Presentations
continue to make presentations in FSI classes, as a result of revisions to
our strategic and FY 2002 performance goals, we will not formally
measure this in the future.                                                                             Very High
Data quality and strategies to address data limitations: We have no                              High
data to report, as we chose to devote the resources necessary to obtain
this information to other, more pressing needs. Although we will                         Good                       No
continue to solicit informal feedback from course attendees and                                                     Data
curriculum developers, we have no plans to try to track this information
formally in the future.
Effect of results on the FY 2002 performance plan: As a result of                     FY 1999 FY 2000 FY 2001 FY 2001
revisions to our strategic plan and goals for FY 2002 and beyond, this                 Actual  Actual  Target  Actual
performance goal and measure have been replaced in our FY 2002 plan.




                                                                             A - 23
Performance Goal 2: Areas of vulnerability and opportunities for
misconduct, mismanagement, and abuse are reduced.
MEASURE: At least 85 percent of OIG recommendations to reduce
significant vulnerabilities at foreign affairs agencies and selected
appropriate non-governmental organizations have been accepted.
 FY 1998        FY 1999         FY 2000         FY 2001        FY 2001
 ACTUAL         ACTUAL          ACTUAL          TARGET         ACTUAL
    N/A            59%            4.5%            85%             0%                   Percent of OIG Recommendations to
Success in meeting performance target: We fell considerably short of                    Reduce Significant Vulnerabilities
our target for FY 2001 and the actual results of FY 2000. We believe                                Accepted
this is largely due to two factors:
    •     All but one of the reports with the related recommendations
          were issued within the last four months of the fiscal year,                100%
          allowing relatively little time to resolve and/or implement the                                         85%
          recommendations; and
                                                                                     80%
    •     Components of our Office of Audits focused minimal attention
          on compliance activities as we started and then aborted an
                                                                                              59%
          attempt to reorganize into a matrix organization during the                60%
          year. Having subsequently reorganized into a more traditional
          audit structure, and placing an emphasis on compliance under               40%
          our revised strategic and performance goals, we have targeted
          this area for considerable improvement in FY 2002 and
          beyond.                                                                    20%                 5%                  0%
Data quality and strategies to address data limitations: We have
verified the accuracy and completeness of the data found in our                       0%
                                                                                            FY 1999   FY 2000   FY 2001   FY 2001
compliance analysis tracking system.                                                         Actual    Actual    Target    Actual
Effects of results on FY 2002 performance plan: As a result of
revisions to our strategic plan and goals for FY 2002 and beyond, this
performance goal and measure have been replaced in our FY 2002 plan.
We will still continue to track and set targets for the resolution and
implementation of recommendations, under a new strategic and
performance goal, although the criteria for the period in which they are
resolved and implemented will differ from the criteria used in FY 2001
and prior years.




                                                                            A - 24
Performance Goal 3: Allegations are reviewed and investigations are conducted
expeditiously, while at the same time ensuring quality results and products.
MEASURE: Of the routine employee investigations still open at the end of FY 2000,
at least 15% will be open for 100 days or less and no more than: (1) 35% will be
open for 100 or more days; (2) 10% will be open for 201-300 days; and (3) 40% will
be open for more than 300 days.
                                                                                                      Days Employee Investigations Were Open
FY 1998        FY 1999             FY 2000             FY 2001            FY 2001
ACTUAL       ACTUAL DAYS         ACTUAL DAYS         TARGET DAYS        ACTUAL DAYS
 DAYS
                                                                                                     100%
   N/A           9% <100           30% <100            15% <100            26% <100
                                                                                                      90%
             25% @100-200        35% @100-200        35% @100-200       21% @100-200
                                                                                                      80%
             16% @ 201-300       0% @ 201-300       10% @ 201-300       16% @ 201-300
                                                                                                      70%
                50% > 300          35% > 300           40% > 300           37% > 300                  60%
Success in meeting performance targets: We have exceeded two of our targets and                       50%
fell short on two others. Overall, there has been a significant increase in the
percentage of cases that were open for more than 200 days vs. our actual FY 2000                      40%
results. We believe that this is largely because of the significant turnover in Office of             30%
Investigation agents and the inability to replace them in FY 2001. However, there is
evidence of our progress in the time it took us in FY 2001 to close cases. Of those                   20%
cases that were closed in FY 2001, 70% were closed within 200 days (versus 47% in                     10%
FY 2000), and 30% in 201 days or more (versus 53% in FY 2000). We believe that
this is evidence that, although we missed some of our FY 2001 targets overall, we                      0%
have made progress in the timeliness of investigations. Both of these measures are                           FY 1999    FY 2000      FY 2001     FY 2001
continued under revised strategic and performance goals for FY 2002 and beyond.                               Actual     Actual       Target      Actual

Data quality and strategies to address data limitations: We have verified the
accuracy and completeness of the data.                                                               <100 days   100-200 days     201-300 days   >300 cays
Effects of results on FY 2002 performance plan: Although we have revised our
strategic and FY 2002 performance goals, this goal and measure remains in our plans
for FY 2002 and beyond. In addition, we have added another measure targeting the
time it took to complete cases that were closed during the year. We have also
initiated new policies and procedures to ensure more timely oversight of all cases, in
order to meet our targets in subsequent years.




                                                                                            A - 25
              Strategic Goal: Improved Management and Performance of Resources to Accomplish OIG Objectives

This strategic goal addresses our efforts to enhance OIG internal management by focusing on the support functions and issues that cross operational lines and
affect both the achievement of our other strategic goals and the level of satisfaction our customers have with our results. Specifically, it includes improving the
timeliness and quality of our products, sharpening our ability to use our financial and human resources effectively and efficiently, installing institutional procedures
for addressing problem areas early, and fully developing an automated management information system that will integrate all of our various programs.

Our FY 2001 performance goals under this strategic goal focused on identifying and reducing project management and resource utilization weaknesses and
improving the quality of our products to meet customer needs. With respect to our success in meeting these goals, OIG believes that:

•      Project management and resource utilization weaknesses are identified and reduced: We cannot conclude that this goal was met because we have no
       formal, quantifiable data to report for the measures under this performance goal.2 However, even though this is not a formal performance goal in our FY
       2002 performance plan, it continues to be one of our most important internal goals as we strive to reduce considerably the time it takes to complete
       projects. We will continue to report our results formally in our performance report.

•      Quality of products is improved to meet customer needs: We must conclude that this goal was not met, even though we have no formal, quantifiable data to
       report for the measures under this performance goal.3 As part of his pre-confirmation activities and subsequent to assuming leadership of the OIG, the
       Inspector General solicited the views and informal evaluations of numerous Administration, Congressional, Department, BBG, and other interested parties
       who maintained that significant changes were necessary in OIG. These assessments played a pivotal role in the decisions he made regarding the OIG
       reorganization, products, and revisions to the OIG Strategic and FY 2002 Performance Plans, although the results of these will not be seen until FYs 2002
       and 2003. A customer survey is planned for late FY 2002.

                                                         Major Accomplishments in Support of This Strategic Goal


                               OIG Activity or Finding                                                                                   Result

In September 2001, OIG launched the PTS that allows OIG managers to plan and                    The PTS system has allowed OIG to track closely the timeliness, as well as estimated costs,
monitor progress against estimated milestones and resource costs and to track staff             of each project. With the ability to monitor progress against milestones, OIG has established
resources assigned to specific projects.                                                        an ambitious goal of completing all projects within 7.5 months by the end of FY 2002 and
                                                                                                within six months by the end of FY 2003.

OIG’s organizational structure, goals, and priorities have been revised and personnel,          The concentration of resources on our core functions will allow OIG to produce more and
funds, and other resources redeployed to focus on our core statutory functions and              better audit, inspection, and investigative reports more quickly than ever before.
minimize support functions as much as possible.


2
    During FY 2001, we chose to develop fully our project tracking system before implementing it for FY 2002, after our reorganization was completed.
3
    During FY 2001, we chose to postpone a formal customer survey until late in FY 2002.


                                                                                           A - 26
                           OIG Activity or Finding                                                                           Result

To emphasize OIG’s role vis-à-vis the BBG, a new Office of International             Creating a focal point for international broadcasting issues has improved the quality and
Broadcasting Oversight has been created, to be headed by an Assistant Inspector      frequency of interaction with BBG, ensured that broadcasting issues are considered a key
General reporting directly to the Inspector General.                                 part of all OIG work, and strengthened OIG’s ability to speak authoritatively on issues
                                                                                     involving U.S. international broadcasting activities.

As part of its reorganization, OIG consolidated its external reviews of Department   Centralization of all information technology resources and activities under a single office
and BBG information technology and security and its internal information             ensures that all IT issues, both internal and external, are coordinated and consistent with
technology planning and support operations under the auspices of a new chief         federal, Department, and OIG standards and guidelines.
information officer, who reports directly to the Inspector General.

Unnecessary support functions have been disbanded and all other essential support    The streamlined, consolidated administrative unit allows for more effective coordination
functions have been consolidated into a single administrative unit, which includes   and efficient use of OIG resources and provides better support to the organization in
an expanded human resources unit providing greater oversight of recruitment,         carrying out its core statutory functions. OIG is participating in the Department’s
retention, and career development and training.                                      domestic staffing model pilot project—the subject of prior OIG recommendations—and
                                                                                     has established internal training programs to improve EEO awareness and attention to
                                                                                     performance standards, evaluations, and training plans.




                                                                                     A - 27
Performance Goal 1: Project management and resource utilization                           Performance Goal 2: Quality of products is improved to meet customer
weaknesses are identified and reduced.                                                    needs.
MEASURE: 77 percent of all OIG projects are completed on time.                            MEASURE: Customer satisfaction with OIG products will increase by ten
                                                                                          percent over the baseline established in FY 2000..
 FY 1998         FY 1999         FY 2000          FY 2001         FY 2001
 ACTUAL          ACTUAL          ACTUAL           TARGET          ACTUAL                   FY 1998          FY 1999          FY 2000         FY 2001          FY 2001
    N/A           No Data         No Data           82%           No Data                  ACTUAL           ACTUAL           ACTUAL          TARGET           ACTUAL

Success in meeting performance targets: We were unable to compile                             N/A            Survey          Baseline        Baseline          No Data
complete data for this measure. In FY 2001, we began implementing an                                        Developed       Established      plus 10%
electronic project tracking system, but as a result of problems and delays, it            Success in meeting Performance target: Plans to conduct a follow-up
was not fully implemented until late in the last quarter. Consequently, we                customer survey during FY 2001 were postponed due to the changes in OIG
were unable to obtain complete data. Although our FY 2002 and future                      leadership and the efforts to implement and then reverse a planned
performance plans do not contain formal strategic and performance goals                   reorganization. Following his confirmation and appointment, the new
and measures for our internal OIG administrative activities, they do contain              Inspector General initiated a series of management improvement initiatives to
an enabling goal and targets that focus on completing our work in a more                  improve OIG operations and address customer concerns, however, a follow-up
timely manner. We will report our results formally in the performance                     customer survey has been scheduled for late FY 2002 to assess the success of
reports. In addition to using the project tracking system to monitor                      these initiatives.
progress and take corrective actions as necessary to ensure timely
completion of our projects, we have instituted other initiatives to reduce the            Data quality and strategies to address data limitations: As noted above, we
time required to complete our work. For example, except in rare cases,                    chose to delay conducting a formal customer survey until late FY 2002 in order
projects planned to take longer than six months to complete will not be                   to allow our new initiatives to be fully implemented.
approved and regular meetings to measure the progress of these projects                   Effect of results on the FY 2002 performance plan: As a result of revisions
against estimated milestones have been established.                                       to our strategic plan and goals for FY 2002 and beyond, we no longer have a
Data quality and strategies to address data limitations: Our data for FY                  formal internal strategic goal or corresponding performance goals to support it.
2001 is incomplete, due to the delay in implementing our project tracking                 However, we plan to conduct another customer survey at the end of FY 2002,
system until late in the fourth quarter of FY 2001. Consequently, we have                 and the Inspector General will continue to consult regularly with OIG
decided not to report any data for this measure. However, we have                         customers.
implemented a project tracking system that is providing data on FY 2002
projects, which we will track and report on in the future.
Effects of results on the FY 2002 performance plan: As a result of
revisions to our strategic plan and goals for FY 2002 and beyond, we no
longer have a formal internal strategic goal or corresponding performance
goals to support it. However, in the effort to improve our internal
management and efficiency and effectiveness, we have established an
enabling goal and performance target that OIG projects will take an average
of 7.5 months or less to complete in FY 2002 (with further reductions in
future years) that we will actively track and report on.




                                                                                 A - 28
               APPENDIX I. Comparison of OIG FY 2001 and FY 2002 Strategic and Performance Goals

During FY 2001, OIG completely revised its strategic and performance goals for FY 2002 and beyond. The number of strategic goals has
decreased from five to four with the elimination of our strategic goal on improving management and performance of resources to accomplish
OIG objectives. This change has been made to ensure that our strategic goals are focused on external long-term goals and priorities. The overall
objective of ensuring the efficiency and effectiveness of our own internal management operations has been captured in a series of management
improvement initiatives and internal “enabling” goals that facilitate the accomplishment of our external strategic and performance goals. These
enabling goals include goals, strategies, and measures directed at improving recruitment and retention of well-qualified employees and
improving the timeliness of OIG activities and products.

Our strategic and performance goals for FY 2001 and those for FY 2002 and beyond are presented below. Although the two sets of goals are
presented side by side, there is not a direct correlation between the individual goals. Taken as a whole, however, they address the same overall
priorities, objectives, and mission responsibilities. Specifically:

Our strategic goal on “improved conduct of foreign relations” has been replaced by a new strategic goal—The Department and the BBG
effectively, efficiently, and economically advance the foreign policy interests of the United States—that more clearly defines what improved
conduct of foreign relations means.

                 Strategic and Performance Goals for FY 2001                                     Strategic and Performance Goals for FY 2002-03

    Improved conduct of foreign relations                                             The Department and the BBG effectively, efficiently, and economically
                                                                                      advance the foreign policy interests of the United States. OIG will:
    •   Chiefs of Mission and senior foreign affairs managers have in place
        and exercise appropriately the authorities, structures, skills, and           •   Identify opportunities for improving the management and operations
        foreign/domestic relationships necessary to develop, decide,                      of overseas missions, domestic bureaus and international broadcasting
        communicate and implement policy decisions effectively.                           activities through post management and thematic inspections, audits,
                                                                                          and program evaluations;
    •   Policies, programs, operations, and other activities carried out by
        organizational units of the U.S. foreign affairs community promote            •   Evaluate at least eight U.S. Government operations and programs with
        U.S. strategic goals with increased effectiveness.                                foreign policy implications—especially those under Chief of Mission
                                                                                          authority or related to international broadcasting and the free flow of
                                                                                          information around the world; identify obstacles to the Chief of
                                                                                          Mission, Department, or BBG oversight and coordination of the
                                                                                          operations and programs; and recommend actions necessary to remove
                                                                                          or overcome them; and
                                                                                      •   Increase the cumulative number/percentage of missions and bureaus
                                                                                          inspected on a five-year cycle.




                                                                              A-I-1
     Our strategic goal on “better alignment of fiscal and human resources with U.S. foreign policy priorities” has been addressed by
    performance goals under two of our new strategic goals: the Department and the BBG effectively, efficiently, and economically advance the
    foreign policy interests of the United States, and the Department and the BBG have the necessary financial and support systems and
    controls to meet legal and operational requirements.

                  Strategic and Performance Goals for FY 2001                                      Strategic and Performance Goals for FY 2002-03

    Better alignment of fiscal and human resources with U.S. foreign policy
                                                                                       See performance goals under Strategic Goals 1 and 3.
    priorities
    The efforts of the Department to develop and use performance measures
    are evaluated.
    Chiefs of Mission and senior managers exercise the executive and program
    skills and authorities necessary to ensure efficient and effective operation
    of resources and activities in support of U.S. strategic goals.


Our strategic goal on “greater adherence to fundamental principles governing professional and ethical conduct” has been addressed by a new
strategic goal on accountability—the Department and the BBG are free of fraud, waste, abuse, and mismanagement—which also addresses
financial integrity concerns formerly measured under one of the performance goals for our strategic goal on “more effective, efficient, and
secure operations and infrastructures.”

               Strategic and Performance Goals for FY 2001                                       Strategic and Performance Goals for FY 2002-03

   Greater adherence to fundamental principles governing professional              The Department and the BBG are free of fraud, waste, abuse, and
   and ethical conduct                                                             mismanagement. OIG will:
   •   Systemic weaknesses in areas such as financial, information, real           •     Identify a minimum of $3.75 million in potential monetary benefits as a
       property and human resources management are reduced.                              result of audit and investigative recommendations to identify waste,
                                                                                         fraud, abuse, and mismanagement and to improve the efficiency of
   •   Areas of vulnerability and opportunities for misconduct,                          Department operations and compliance with applicable contracts and
       mismanagement, and abuse are reduced.                                             grant agreements; and
   •   Allegations are reviewed and investigations are conducted                   •     Promote awareness and adherence to standards of professional and
       expeditiously, while at the same time ensuring quality results and                ethical conduct and accountability; where necessary, conduct thorough
       products.                                                                         and expeditious investigations of fraud, waste, abuse, and
                                                                                         mismanagement.




                                                                            A-I-2
Our strategic goal on “more effective, efficient, and secure operations and infrastructures” has been addressed by a new strategic goal focusing
entirely on security—the Department and the BBG adequately protect the people, information, and facilities under their control in the United
States and abroad—and another addressing the efficiency and effectiveness of Department and BBG operations—the Department and the BBG
have the necessary financial and support systems and controls to meet legal and operational requirements.

              Strategic and Performance Goals for FY 2001                                    Strategic and Performance Goals for FY 2002-03

More effective, efficient, and secure operations and infrastructures            The Department and the BBG have the necessary financial and support
                                                                                systems and controls to meet legal and operational requirements. OIG will:
•   Potential cost efficiencies and opportunities for streamlining in areas
    such as human resources, information management, financial                  •   Identify challenges and vulnerabilities, with recommendations to address
    management, property management, and security are identified and best           them, for at least fifteen Department financial and administrative support
    practices shared.                                                               programs and activities;
•   U.S. personnel, information, and facilities are made more secure through    •   Evaluate Department and BBG progress in measuring performance and
    the identification and correction of security weaknesses and deficiencies       linking performance goals to budget, and recommend improvements, as
    related to human intelligence, technical and physical attacks, terrorism,       appropriate.
    and crime.
                                                                                The Department and the BBG adequately protect the people, information,
•   Systemic weaknesses in areas such as financial, information, real
                                                                                and facilities under their control in the United States and abroad. OIG
    property and human resources management are reduced.
                                                                                will:
                                                                                •   Evaluate at least six Department programs designed to improve security
                                                                                    for its people, buildings, and information, and identify any corrective
                                                                                    actions necessary to ensure that they meet their stated goals;
                                                                                •   Identify vulnerabilities and recommend corrective action with respect to
                                                                                    information systems and security at no fewer than 20 overseas missions;
                                                                                •   Increase the cumulative number/percentage of missions and selected
                                                                                    bureaus receiving security inspections and reviews on a five-year cycle




                                                                           A-I-3
 Our strategic goal on “improved management and performance of resources to accomplish OIG objectives” has been eliminated as a strategic
goal and addressed by a series of management improvement initiatives and a pair of performance goals that will be monitored and measured
internally:

•   to attract and retain employees with the requisite professional skills and experience in the areas of foreign policy, financial auditing,
    investigations, information technology, security, and other areas of need

•   to issue a final report or other product within seven and a half months of starting a project by the end of FY 2002 and within six months of
    starting a project by the end of FY 2003.



Strategic and Performance Goals for FY 2001                                    Internal Enabling Goal for FY 2002-03

Improved management and performance of resources to accomplish OIG             Ensuring Operational Integrity and Effectiveness. OIG will:
objectives
                                                                               •    Issue a final report or other product within six months of starting a
•   Project management and resource utilization weaknesses are identified           project.
    and reduced.
•   Quality of products is improved to meet customer needs.




                                                                            A-I-4
       APPENDIX II: FY 2002 Strategic and Performance Goals, Measures, and Actual and Targeted Performance

    Strategic Goal                  Performance Goal                           Measure             FY 1999   FY 2000   FY 2001   FY 2002
                                                                                                    Actual    Actual    Actual    Target
The Department and        Identify opportunities for improving the      Recommendations             82%       86%       63%       91%
the BBG effectively,      management and operations of overseas         resolved within six
                          missions, domestic bureaus and                months
efficiently, and
                          international broadcasting activities
economically advance      through post management and thematic          Recommendations             51%       63%       73%       70%
the foreign policy        inspections, audits, and program              implemented within one
interests of the United   evaluations.                                  year
States                    Evaluate at least eight U.S. Government       Programs reviewed and        8         9         7         8
                          operations and programs with foreign          report issued
                          policy implications—especially those
                          under Chief of Mission authority or
                          related to international broadcasting and
                          the free flow of information around the
                          world; identify obstacles to the Chief of
                          Mission, Department, or BBG oversight
                          and coordination of the operations and
                          programs; and recommend actions
                          necessary to remove or overcome them.
                          Increase the cumulative number and            Missions Inspected          64%       66%       65%       77%
                          percentage of missions and selected           within last five years
                          bureaus inspected on a five-year cycle.
The Department and        Evaluate at least six Department              Programs reviewed and        2         6         6         6
the BBG adequately        programs designed to improve security         reports issued
                          for its people, buildings, and information,   Recommendations             52%       61%       71%       67%
protect the people,
                          and identify any corrective actions           resolved within six mos.
information, and          necessary to ensure that they meet their      Recommendations
facilities under their                                                                              38%       75%       59%       82%
                          stated goals.                                 implemented within one
control in the United                                                   yr.
States and abroad         Identify vulnerabilities and recommend        Missions reviewed           N/A       N/A       N/A        10
                          corrective action with respect to             using new methodology
                          information systems and security at no
                          fewer than 20 overseas missions.
                          Increase the cumulative                       Missions evaluated          67%       74%       80%       85%
                          number/percentage of missions and             within last five years
                          selected bureaus receiving security
                          inspections and reviews on a five-year
                          cycle.




                                                                                      A-II-1
                 FY 2002 Strategic and Performance Goals, Measures, and Actual and Targeted Performance (Cont.)

   Strategic Goal                 Performance Goal                           Measure              FY 1999       FY 2000        FY 2001       FY 2002
                                                                                                   Actual        Actual         Actual        Target
The Department and      The Department and the BBG have the           Programs reviewed and          13            14            15             15
                        necessary financial and support systems and
the BBG have the        controls to meet legal and operational
                                                                      reports issued
necessary                                                             Recommendations               77%           70%           58%            79%
                        requirements.
                                                                      resolved within six mos.
financial and support                                                 Recommendations
systems and controls                                                                                65%           81%           75%            92%
                                                                      Implemented within one
to meet legal and                                                     yr.
operational             Evaluate Department and BBG progress          Reports Issued                 4             4              4             5
requirements            in measuring performance and linking
                        performance goals to budget, and
                        recommend improvements, as
                        appropriate.
The Department and      Identify a minimum of $3.75 million in        Cost savings,               $9.36         $3.23          $12.49        $3.75
the BBG are free of     potential monetary benefits as a result of    efficiencies, recoveries
                                                                                                  Million       Million        Million       Million
                        audit and investigative recommendations       and fines
fraud, waste, abuse,
                        to identify waste, fraud, abuse, and
and mismanagement       mismanagement and to improve the
                        efficiency of Department operations and
                        compliance with applicable contracts and
                        grant agreements.
                        Promote awareness and adherence to            Days cases open at end        N/A          45% < 100     26% < 100      45% < 100
                        standards of professional and ethical         of year
                        conduct and accountability; where                                                      30%@100-200   21% @100-200   30%@100-200
                        necessary, conduct thorough and                                                        0%@201-300    16% @201-300   5%@201-300
                        expeditious investigations of fraud,                                                      25%>300       37%>300        20%>300
                        waste, abuse, and mismanagement.              Days to close cases          20% < 100     27% < 100     53% < 100      45% < 100
                                                                      closed during year
                                                                                                 19%@100-200   20%@100-200   20% @100-200   15%@100-200
                                                                                                 15%@201-300   10%@201-300    7% @201-300   5%@201-300
                                                                                                    46%>300       43%>300       20%>300        35%>300


                               Internal Enabling Goal that OIG will also report on in future Performance Reports

   Strategic Goal                    Enabling Goal                           Measure              FY 1999       FY 2000        FY 2001       FY 2002
                                                                                                   Actual        Actual         Actual        Target
None                    To complete projects in a timely manner.      Average number of              277           267           252            225
                                                                      days from project start
                                                                      to product issuance




                                                                                    A-II-2
APPENDIX III. Reports Issued In FY 2001 and the Primary Strategic Goal that They Supported

Improved conduct of foreign relations

ISP/I-01-01     Inspection of Embassy Conakry, Guinea                                      10/00
ISP/I-01-02     Inspection of Embassy Panama City, Panama                                  11/00
ISP/I-01-03     Inspection of Embassy Dakar, Senegal                                       11/00
ISP/I-01-04     Inspection of Embassy Bamako, Mali                                         11/00
ISP/I-01-06     Inspection of Embassy Bogota, Colombia                                     12/00
ISP/I-01-07     Memorandum Report of Inspection of U.S. Embassy Bogota                     11/00
ISP/I-01-08     Memorandum Report of Inspection of U.S. Embassy Panama                     11/00
01-FP-R-003     Inspection of Bureau of European Affairs                                    3/01
01-FP-R-011     Inspection of Embassy Sarajevo, Bosnia-Herzegovina                          3/01
01-FP-R-012     Inspection of Embassy Bratislava, Slovakia                                  3/01
01-FP-M-018     Review of the Broadcasting Board of Governors Transition to Independence    3/01
01-FP-R-020     Inspection of U.S. Interests Section Havana, Cuba                           3/01
01-FP-R-021     Inspection of Embassy Sofia, Bulgaria                                       3/01
01-FP-R-022     Inspection of Embassy Caracas, Venezuela                                    3/01
01-FP-R-025     Inspection of Embassy Dar es Salaam, Tanzania                               3/01
01-FP-R-026     Inspection of Embassy Nairobi, Kenya                                        3/01
01-FP-M-027     Review of U.S. Munitions List and the Commodity Jurisdiction Process        3/01
01-FP-M-045     Review of Implementation of the Federal Voter Assistance Program            9/01
01-FP-R-046     Inspection of Embassy Algiers, Algeria                                      6/01
01-FP-R-047     Inspection of Embassy Djibouti, Republic of Djibouti                        7/01
01-FP-R-049     Inspection of Embassy Asmara, Eritrea                                       6/01
01-FP-R-056     Inspection of Embassy Montevideo, Uruguay                                   7/01
01-FP-R-057     Inspection of Embassy Lima, Peru                                            9/01
01-FP-R-058     Inspection of Embassy Asuncion, Paraguay                                    7/01
01-FP-R-063     Inspection of Embassy Accra, Ghana                                          9/01
01-FP-R-065     Inspection of Embassy Libreville, Gabon                                     9/01
01-FP-R-066     Inspection of Embassy Lome, Togo                                            9/01
01-FP-PM-087    Review of Mission Counternarcotics Activities in Bolivia/Ecuador            9/01
01-FP-R-090     Inspection of Embassy Budapest, Hungary                                     9/01
01-FP-R-091     Inspection of Embassy Warsaw, Poland                                        9/01


Better alignment of fiscal and human resources with U.S. foreign policy priorities

ISP/I-01-05     Status of State-USIA Consolidation at Overseas Posts                        3/01
                                                                A–III-1
More effective, efficient, and secure operations and infrastructures

SIO/A-01-02     Audit of Emergency Action Management                                                   10/00
SIO/I-01-01     Security Inspection of Embassy Damascus, Syria                                         10/00
SIO/I-01-03     Security Inspection of Embassy Beirut, Lebanon                                         12/00
SIO/I-01-04     Security Inspection of Embassy Skopje, Macedonia                                       11/00
SIO/I-01-05     Security Inspection of Embassy Helsinki, Finland                                       12/00
SIO/I-01-07     Security Inspection of Embassy Nicosia, Cyprus                                         12/00
SIO/I-01-08     Security Inspection of Embassy Antananarivo, Madagascar                                12/00
SIO/I-01-09     Security Inspection of Embassy Port Louis, Mauritius                                   12/00
SIO/I-01-12     Security Inspection of Embassy Rangoon, Burma                                          12/00
01-SEC-R-002    Security Inspection of Embassy Moscow, Russia                                           3/01
01-SEC-R-004    Security Inspection of U.S. Office Pristina                                             3/01
01-SEC-R-005    U.S. Diplomatic Posts in the Bureau of European Affairs                                 6/01
01-SEC-R-010    Compliance Followup Review of the Security Inspection of Embassy Ljubljana, Slovenia    3/01
01-SIO-R-042    Security Inspection of Embassy Hanoi and Consulate General Ho Chi Mihn City, Vietnam    6/01
01-SIO-R-043    Security Inspection of Embassy Phnom Penh, Cambodia                                     5/01
01-SIO-R-044    Security Inspection of Embassy Bandar Seri Begawan, Brunei                              7/01
01-SIO-R-061    Audit of the Department’s Background Investigations                                     8/01
01-SIO-R-085    Audit of the State Department’s Anti-Terrorism Assistance Program                       9/01
01-FP-R-011/A   Security Annex of Inspection of Embassy Sarajevo, Bosnia-Herzegovina                    4/01
01-FP-R-012/A   Security Annex of Inspection of Embassy Bratislava, Slovakia                            4/01
01-FP-R-020/A   Security Annex of Inspection of U.S. Interests Section, Havana, Cuba                    5/01
01-FP-R-021/A   Security Annex of Inspection of Embassy Sofia, Bulgaria                                 4/01
01-FP-R-022/A   Security Annex of Inspection of Embassy Caracas, Venezuela                              4/01
01-FP-R-025/A   Security Annex of Inspection of Embassy Dar es Salaam, Tanzania                         4/01
01-FP-R-026/A   Security Annex of Inspection of Embassy Nairobi, Kenya                                  4/01
01-FP-R-047/A   Security Annex of Inspection of Embassy Djibouti, Djibouti                              7/01
01-FP-R-049/A   Security Annex of Inspection of Embassy Asmara, Eritrea                                 6/01
01-FP-R-056/A   Security Annex of Inspection of Embassy Montevideo, Uruguay                             7/01
01-FP-R-057/A   Security Annex of Inspection of Embassy Lima, Peru                                      9/01
01-FP-R-058/A   Security Annex of Inspection of Embassy Asuncion, Paraguay                              7/01
01-FP-R-063/A   Security Annex of Inspection of Embassy Accra, Ghana                                    9/01
01-FP-L-055     Review of Diplomatic Mail and Pouch Support for the Federal Voter
                Assistance Program                                                                      9/01
01-FMA-R-006    Review of the Surveillance Detection Program                                            3/01

                                                              A–III-2
01-FMA-R-014   Foreign Service Retirement and Disability Fund Financial Statements
               for FY 2000                                                                         4/01
01-HR-M-036    Review of Overseas Medical Operations                                               7/01
01-HR-R-060    Compliance Followup Review of the Inspections of the Bureau of Human
               Resources and The Foreign Service Institute                                         9/01
01-IT-R-044    Critical Infrastructure Protection: The Department Can Enhance Its International
               Leadership and Its Own Cyber Security                                               6/01
01-FMA-M-053   Review of the Overseas Wireless Program                                             7/01
01-FMA-R-078   Information Technology Vulnerability Assessment at the Charleston
               Financial Service Center                                                            9/01
01-FMA-M-081   Survey of the Worldwide Purchase Card Program - Domestic Operations                 9/01
01-IT-M-082    Senior Management Attention Needed to Ensure Effective Implementation
               of the Government Information Security Reform Act                                   9/01
01-FMA-R-083   United States Information Agency’s Balance Sheet as of September 30, 1999           9/01
01-PP-002      Inquiry into the Procurement of Contractor Support for the International Affairs
               Global Resource Database                                                           11/00
01-PP-003      Review of Humanitarian Demining Management and Procurement Activities              12/00
01-FM-004      Vulnerability and Penetration Testing Analysis of the Unclassified Automated
               Information Systems at the Bangkok Financial Service Center                         1/01
01-FM-006      Application of Agreed-Upon Procedures Report                                       12/00
01-FMA-M-009   Review of the War for Talent Personnel Study                                        3/01
01-FMA-R-013   Audit of U.S. Department of State 2000 Principal Financial Statements               3/01
01-FMA-L-015   Review of Water and Sewer Payments to the District of Columbia                      2/01
01-FMA-L-023   Federal Agencies’ Centralized Trial-Balance System Agreed-Upon
               Procedures Report
                                                                                                   3/01

Greater adherence to fundamental principles governing professional and ethical conduct

01-FMA-R-016   Review of Selected Awards to Mississippi Consortium for International
               Development for Activities in the New Independent States                            3/01
01-FMA-M-040   Need to Improve Internal Controls in the Miami Passport Office                      8/01
01-FMA-M-048   Review of the Accounting System of Delphi International, Inc.                       6/01
01-FMA-M-051   Review of Inter-Con Security Systems, Inc. Billing Procedures Under the U.S.
               Department of State Contract No. S-OPRAQ-96-0569                                    6/01
01-FMA-R-080   Review of Selected Awards to Project Harmony, Inc., for Activities in the
               New Independent States                                                              9/01
01-FMA-R-092   Review of Awards to Iraqi National Congress Support Foundation                      9/01

                                                                A–III-3
   Office of Inspector General
    U.S. Department of State
              and the
Broadcasting Board of Governors




FY 2002 - 2007




          A-IV-1
                                                                                                Table of Contents

Foreword .................................................................................................................................................................................................      A-IV-3

Vision ......................................................................................................................................................................................................   A-IV-3

Mission ....................................................................................................................................................................................................    A-IV-3

Framework and Statutory Responsibilities .............................................................................................................................................                          A-IV-4

Relationship Between Strategic and Performance Goals........................................................................................................................                                    A-IV-4

General Means and Strategies .................................................................................................................................................................                  A-IV-4

Assumptions ............................................................................................................................................................................................        A-IV-5

Program Evaluation.................................................................................................................................................................................             A-IV-5

Key Factors That Could Affect Goal Achievement ................................................................................................................................                                 A-IV-6

Strategic Goals ........................................................................................................................................................................................        A-IV-7

The Department and the BBG Effectively, Efficiently, and Economically Advance the Foreign Policy Interests of the United States A-IV-7
The Department the BBG Adequately Protect the People, Information, and Facilities
 Under their Control in the United States and Abroad ..........................................................................................................................                                 A-IV-8
The Department and the BBG Have the Necessary Financial and Support Systems
 and Controls to Meet Legal and Operational Requirements................................................................................................................                                        A-IV-9
The Department and the BBG are Free of Fraud, Waste, Abuse, and Mismanagement......................................................................... A-IV-10




                                                                                                      A-IV-2
                                                             Office of Inspector General
                                                             Strategic Plan, FY 2002-07


                                                                      Foreword
Three years ago, OIG developed and began implementing our first strategic plan under the Government Performance and Results Act (GPRA). Since
that time, the nature of planning and performance measurement in government has advanced significantly.
This strategic plan reflects a significant rethinking of our original strategic goals and planning framework. From a series of goals focused around our
operational objectives, we have moved toward a focus on the primary issues affecting the economy, efficiency, and effectiveness of the Department of
State (Department) and Broadcasting Board of Governors (BBG) programs and operations including foreign policy, security, financial management
and administrative support, and accountability. In addition, to ensure that we remain flexible and responsive to the demands and challenges of the
Department, Congress, and an ever changing world environment, we have recently reorganized along more traditional functional lines that will help us
achieve our goals more effectively, efficiently, and economically.


                                                                        Vision
To support the Department of State and the Broadcasting Board of Governors in achieving their missions as effectively, efficiently, and economically
as possible.


                                                                       Mission
The mission of the Office of Inspector General is to serve as an independent, objective reviewer and evaluator of the operations and activities of the
Department of State and the Broadcasting Board of Governors. We analyze those operations and activities with a view toward promoting
effectiveness, efficiency, and economy. We seek out instances of fraud, waste, abuse, and mismanagement, and we work to prevent them. We report
to the Secretary of State, the Broadcasting Board of Governors, and the Congress, keeping them fully and currently informed of significant
developments and serious concerns.




                                                                         A-IV-3
                                                       Framework and Statutory Responsibilities
The 1978 Inspector General Act, as amended, and the 1980 Foreign Service Act, respectively, charge the OIG with detecting and preventing waste
fraud, and mismanagement and with assessing whether U.S. foreign policy goals are being achieved, resources are used to maximum efficiency, and
all elements of U.S. overseas missions are coordinated. With subsequent legislation mandating OIG’s oversight of the Arms Control and
Disarmament Agency and United States Information Agency (which were consolidated with the Department in Fiscal Years 1999 and 2000,
respectively), and the BBG, this authority covers about $7 billion in programs and spending, and overall direction and coordination of the entire $23
billion of international programs by non function 150 agencies, other than military personnel serving under a regional commander.
    OIG’s security and intelligence oversight responsibilities were established through the Omnibus Diplomatic Security and Anti-Terrorism Act of
1986 and executive orders 12333 (U.S. Intelligence Activities) and 12863 (President’s Foreign Intelligence Advisory Board). OIG also is responsible
for evaluating compliance with other legislation—such as the Chief Financial Officers Act, Federal Managers’ Financial Integrity Act, and Clinger-
Cohen Act: information technology reform—designed to enhance management performance. OIG will also assess, as appropriate, the Department’s
and BBG’s efforts to make and measure progress toward achieving their goals.


                                               Relationship Between Strategic and Performance Goals
The following pages set forth OIG’s strategic goals and objectives. The strategic goals are described in terms of the desired outcomes that we expect to
see in improved Department and BBG programs and operations by 2007, and the long-term strategies required to achieve each. Our annual
performance plans for FY 2002-03 and subsequent years will translate these into the more specific, short-term goals, objectives, means, and strategies
necessary to realize each strategic goal over the next six years. Our success will be demonstrated through these and the mandated performance
measures set forth in the Inspector General Act reporting requirements, other measures of economy, efficiency, effectiveness, and customer
satisfaction, as appropriate, and by the outcomes achieved by the entities subject to our oversight.


                                                             General Means and Strategies
The fundamental means for achieving our strategic and performance goals and objectives will continue to be the audits, inspections, and investigations
that comprise the bulk of our efforts. In addition, we will expand outreach programs to clients and other interested parties and increase our
participation in training programs and other forums, as well as with the rest of the foreign affairs community. We also will reexamine and reengineer
our core processes, products, and services to improve the quality, timeliness, and impact of our efforts; better serve our customers and other interested
parties; and ensure the achievement of our, as well as their, strategic and performance goals and objectives.
    Recognizing that the skills and abilities of our staff are crucial to our success, we will undertake initiatives to recruit and retain highly qualified
employees, including, to the extent resources permit, financial incentives such as premium pay and recruitment and retention bonuses. To promote
continued professional development of our staff, we will provide them with a variety of educational and career development opportunities. These will
include both formal training at high quality institutions, such as the Foreign Service Institute and the Inspectors General Auditor Training Institute, and
on-the-job experiences internally and through temporary details to functional positions in the Department and other government agencies. We also
will continue to encourage and support their efforts to achieve appropriate professional certifications, such as the designation of Certified Public
Accountant.
                                                                           A-IV-4
   Our general strategies for achieving our goals begin with increasing our efforts to solicit regularly the views of and obtain feedback from our
principal customers and other interested parties through consultations, customer surveys, and follow-up reviews to ensure that our products and
services are anticipating and meeting their needs. We will be more proactive in addressing the challenges of the Department and the BBG; work with
them to anticipate and address potential problems in new and developing initiatives and programs; adopt a more consultative approach in
communicating with them about our activities, findings, and recommendations; and expand productive dialogues with agency managers.
   In addition to these general strategies, we also have developed more specific approaches that we will implement over the next six years to achieve
our strategic goals and objectives, as described on pages A-IV-7 to A-IV-10. Individual components of these strategies to be implemented each year
will be described, as appropriate, in our annual performance plans.


                                                                     Assumptions
Our strategic plan is predicated on the assumption that OIG budget and staffing levels will remain relatively stable. This assumption will require a
reversal of the pattern of recent years, which have seen a steady "real term" budget decline. Should this trend continue unabated, OIG's ability to
achieve its strategic goals will be severely compromised by the end of the period covered by this plan. We also assume that we will be able to hire and
retain--or, where necessary, contract for--the skilled and experienced personnel that we need to accomplish our goals and objectives. Completion of
planned information technology upgrades, and maintenance of up-to-date information technology, also is essential to our success in realizing some of
these goals, and in tracking the performance data necessary to demonstrate our success.
   More broadly, our assumptions are based on current administration and congressional policies and priorities, and the current state of world affairs
affecting the Department and the BBG. Our strategic plan will be revised, as necessary, to the extent that policies and priorities of the Department and
Congress or world events change in ways that significantly affect our achievement of these goals, or indicate a need for us to refocus our goals.


                                                                 Program Evaluation
During FY 2001, a peer review team from the Office of Inspector General, General Services Administration, conducted and issued a report on its
quality control review of OIG audit operations. Results of this peer review have been taken into account in the development of this plan. In addition,
the views of the Office of Management and Budget (OMB), Congress, and the General Accounting Office on the role of the OIG in implementing
GPRA have been considered, as have the results of surveys of Department, BBG, and Congressional customers.




                                                                          A-IV-5
                                                  Key Factors That Could Affect Goal Achievement
A number of external factors could affect our ability to accomplish our strategic and performance goals and priorities, including increased
congressional mandates for OIG. In addition, certain factors will affect and influence specific strategic goals:

Security
    •   The inability of the Department and BBG adequately to fund acquisitions, construction, and upgrades necessary to meet ever changing global
        security threats.
    •   Newly emerging threats, such as chemical and biological terrorism, that penetrate even the most secure facilities and systems, based on current
        standards.
    •   The growth of cyberterrorism and related threats that outpace the ability to protect against them.
    •   The collapse of a foreign government that could increase the vulnerability of facilities previously thought secure.
    •   Conflicting security standards and priorities among government agencies and organizations that might make common goals unattainable.

Financial Management and Administrative Support
    •   Unforeseen changes in domestic and foreign economies that could further hinder the ability of the Department and BBG to recruit and retain
        domestic and foreign workforces vis-a-vis private industry.
   •    Unpredictable increases in the rapid pace and dramatic nature of changes in information technologies that may render government technology
        plans and acquisitions obsolete before they are implemented.
   •    The lack of or slow acceptance of changes to domestic and foreign personnel laws and regulations that ensure achievement of desired
        outcomes.




                                                                          A-IV-6
          FOREIGN POLICY                          Strategic Goal: The Department and BBG effectively, efficiently, and economically advance the foreign
                                                  policy interests of the United States

          DESIRED OBJECTIVES                      STRATEGIES

Effective implementation and coordination of      Conduct inspections of every post and bureau every five years to include assessments of implementation of foreign policy,
U.S. policy goals and objectives.                 management of resources and whether controls are in place to reduce likelihood of mismanagement, and whether adequate steps
                                                  have been take to detect, correct and prevent waste, fraud, or abuse. Summaries from these inspections will be used to develop and
Efficient, effective and economical use of        address systemic issues affecting the implementation of foreign policy identified in the course of the inspections.
resources to accomplish foreign policy
objectives.                                       Determine the Department’s effectiveness in providing timely and accurate intelligence and analysis through assessments of the
                                                  Department’s coordination and liaison with the intelligence and law enforcement communities during the conduct of the post
Management controls are in place to ensure        management inspections.
quality of performance and reduce the
likelihood of mismanagement and whether           Determine whether the Department is successfully coordinating U.S. Government efforts to protect the safety and security of
adequate steps for detection, correction, and     American citizens overseas through reviews of consular service technology, infrastructure upgrades, agreements with foreign
prevention have been taken.                       governments, and emergency readiness activities.

Strengthened U.S. security through the            Assess Department and BBG promotion of the free flow of information to foreign publics through reviews of new and traditional
availability of coordinated, timely, and          program delivery methods, public diplomacy initiatives, activities supporting development of free and independent media, and joint
accurate intelligence and analysis.               efforts to achieve shared objectives.

Improvement in Department coordination of         Evaluate, through means of post and bureau inspections and program evaluations, the effectiveness of the Department's
U.S. government efforts to protect the safety     administration of visa and passport laws and regulations and timely data sharing with other U. S. government agencies to deny entry
and security of American citizens overseas.       into the U.S. of terrorists, international criminals and illegal aliens, while facilitating legitimate international travel of foreign
                                                  visitors, lawful immigrants and refugees.
Improvement in Department and BBG
promotion of the free flow of information to
foreign publics.

Improvement of Department's efforts at
promoting interagency coordination in support
of the US border security program while
facilitating international travel to the United
States.




                                                                                          A-IV-7
                SECURITY                          Strategic Goal: The Department and the BBG adequately protect the people, information, and facilities
                                                  under their control in the United States and abroad.

          DESIRED OBJECTIVES                      STRATEGIES

Department and BBG personnel in the United        Perform either a full or limited-scope security inspection of every overseas mission and selected domestic bureaus and
States and abroad will be protected from          operations every five years.
physical harm arising from terrorism and other
acts of violence against Americans.               Develop a risk management strategy to identify vulnerabilities in Department and BBG operations and provide
                                                  guidance on how to achieve a more secure infrastructure.
All employees will be held accountable for
security standards, including the handling of
                                                  Develop a risk management approach to identify priority areas for field evaluations to determine the Department’s
classified information.
                                                  progress in correcting security weaknesses.
All information systems will operate in a
secure manner.                                    Review development, implementation, and management of classified information processing, handling and storage
                                                  standards for the Department.
Intelligence on threats will be disseminated to
protect personnel, information, and facilities.   Review major construction projects in the early stages to identify vulnerabilities at a point where corrective action can
                                                  be taken in the most efficient and effective manner.
Department and BBG facilities will
substantially comply with security standards.     Review development, testing, and implementation of information management systems and information technology to
                                                  include:
                                                       •   Advanced telecommunications networks and infrastructures that ensure total, secure integration of
                                                           Department, BBG and interagency activities, communication, and data sharing by electronic government; and
                                                       •   Facilities, systems, training, policy, procedures, and data ensuring information confidentiality, availability,
                                                           and integrity from terrorists and other threats.

                                                  Review the acquisition, analysis, and dissemination of threat related information by the Department in the formulation
                                                  of protective policies and measures.




                                                                                      A-IV-8
 FINANCIAL MANAGEMENT &                              Strategic Goal: The Department and the BBG have the necessary financial and support systems and
  ADMINISTRATIVE SUPPORT                             controls to meet legal and operational requirements.

          DESIRED OBJECTIVES                         STRATEGIES

The Department and BBG will be in                    Assess Department and BBG progress in correcting management control weaknesses, including the elimination of impediments to
substantial compliance with the laws and             compliance with the Federal Financial Managers Integrity Act and other federal requirements and guidance, through annual reviews
regulations with respect to financial                of the outcomes of remediation and compliance efforts.
management, contracts, information
technology, and federal assistance.                  Meet federal requirements for issuing timely audits of the Department and other financial statements.
Specifically,
- control weaknesses will have been corrected,       Develop and implement a risk management strategy for reviewing contracts and federal assistance and provide consultative advice
                                                     on how to achieve greater cost effectiveness and savings.
- quality goods and services will be acquired
economically,
                                                     Determine the optimal time to review the development, testing, and implementation of mission-critical management and financial
- information systems will be integrated and         information systems and conduct such reviews, including verifying, validating, and assessing the usefulness of data.
secure, provide complete and accurate
information, and accomplish clearly defined          Develop a risk management strategy to identify vulnerabilities in property, facility, and equipment management and assist the
goals and objectives with fiscal integrity.          Department and BBG in identifying and implementing corrective actions.
Mission-critical systems and processes will be       Assess Department progress in meeting current logistics management requirements achieved through reengineering goals and
substantially integrated and standardized;           planned longer-term efficiencies.
automated systems will provide reliable
information for management decision-making           Review development, testing, and implementation of information management systems and information technology to include:
and performance measurement; and                         •   Plans and efforts to streamline operations, improve services, and promote electronic government through effective
responsibilities to federal entities overseas will           application of information technology,
be met.                                                  •   Use of the most cost-effective means of providing information technology services overseas, and
                                                         •   Information security, domestically and overseas.
Department’s and BBG’s ability to meet
operational goals and requirements will be
                                                     Develop a risk management strategy for OIG reviews of information technology projects and provide consultative advice on how to
substantially improved.                              achieve greater value.
Department’s and BBG’s efforts to attract,
                                                     Assess the extent to which Department and BBG information systems and processes are integrated and provide reliable information.
place, and retain highly skilled, motivated,
diverse, and flexible workforces will be             Assess Department efforts to increase program efficiency and effectiveness by automating, reengineering, or outsourcing operations,
efficient and effective.                             as appropriate.
The Department and BBG will be in                    Assess Department efforts to “right-size” overseas missions.
substantial compliance with GPRA, including
identifying measurable goals, credible               Assess the effectiveness of Department efforts to plan for and meet its human resource needs by recruiting, assigning, and retaining
strategies, and valid measures of performance.       a highly skilled, motivated, diverse and flexible workforce.

                                                     Monitor Department efforts to establish and use performance goals and measures and to align resources with goals and performance
                                                     results; identify and share best practices in performance-based management and recommend improved goals, measures, and planning
                                                     techniques, as appropriate.




                                                                                             A-IV-9
         ACCOUNTABILITY                          Strategic Goal: The Department and the BBG are free of fraud, waste, abuse and mismanagement.

          DESIRED OBJECTIVES                     STRATEGIES

Department and BBG managers and                  Identify and address financial malfeasance cases and vulnerabilities and recommend monetary recoveries, where appropriate,
employees will comply with all applicable        including increased collaboration between the Offices of Investigations and Audits.
laws, regulations and policies.
                                                 Identify, review and recommend internal control improvements to Department and BBG programs and functions that are vulnerable
Department and BBG contractors and grantees      to misappropriation, loss, or waste of assets, especially cash and cash equivalents.
will comply with applicable contract and grant
agreements.                                      Work with the Department to enforce employee accountability in security matters.

Department and BBG managers and                  Significantly reduce the time it takes to review allegations and conduct routine employee investigations.
employees will adhere to standards of ethical
and professional conduct.                        Expand outreach to employee audiences on standards of conduct and accountability.

Areas of vulnerability and opportunities for     Promote the OIG hotline and other methods, as appropriate, for Department and BBG employees to report alleged fraud,
misconduct, mismanagement, and abuse will        malfeasance, mismanagement, and other improprieties to OIG.
be reduced.

Allegations of malfeasance and other
improprieties will be investigated in a timely
and thorough manner.




                                                                                        A-IV-10
